<html>
<title> - REINVENTING GOVERNMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         REINVENTING GOVERNMENT 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 18, 2013

                               __________

                           Serial No. 113-36

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

81-803 PDF                       WASHINGTON : 2013 


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
ROB WOODALL, Georgia                 DANNY K. DAVIS, Illinois
THOMAS MASSIE, Kentucky              PETER WELCH, Vermont
DOUG COLLINS, Georgia                TONY CARDENAS, California
MARK MEADOWS, North Carolina         STEVEN A. HORSFORD, Nevada
KERRY L. BENTIVOLIO, Michigan        MICHELLE LUJAN GRISHAM, New Mexico
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 18, 2013....................................     1

                               WITNESSES

The Hon. David M. Walker, Government Transformation Initiative
    Oral Statement...............................................     7
    Written Statement............................................     9
The Hon. Stephen Goldsmith, Daniel Paul Professor of the Practice 
  of Government, Director, Innovations in Government Program, 
  John F. Kennedy School of Government
    Oral Statement...............................................    19
    Written Statement............................................    21
Ms. Elaine C. Kamarck, Ph.D., Director, Management and Leadership 
  Institute, Senior Fellow, Governance Studies, The Brookings 
  Institution
    Oral Statement...............................................    26
    Written Statement............................................    28
Mr. Daniel J. Chenok, Executive Director, IBM Center for the 
  Business of Government
    Oral Statement...............................................    40
    Written Statement............................................    42
Mr. J. David Cox, National President, American Federation of 
  Govenment Employees
    Oral Statement...............................................    50
    Written Statement............................................    52


                         REINVENTING GOVERNMENT

                              ----------                              


                         Tuesday, June 18, 2013

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:03 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Duncan, Jordan, 
Chaffetz, Woodall, Meadows, Bentivolio, Cummings, Maloney, 
Tierney, Lynch, Cooper, Connolly, Speier, Cartwright, Pocan, 
Duckworth, Welch, Cardenas, and Horsford.
    Staff Present: Ali Ahmad, Communications Advisor; Alexia 
Ardolina, Assistant Clerk; Alexa Armstrong, Staff Assistant; 
Molly Boyl, Senior Counsel and Parliamentarian; Lawrence J. 
Brady, Staff Director; John Cuaderes, Deputy Staff Director; 
Adam P. Fromm, Director of Member Services and Committee 
Operations; Linda Good, Chief Clerk; Christopher Hixon, Deputy 
Chief Counsel, Oversight; Michael R. Kiko, Staff Assistant; 
Justin LoFranco, Digital Director; Mark D. Marin, Director of 
Oversight; Krista Boyd, Minority Deputy Director of 
Legislation/Counsel; Jennifer Hoffman, Minority Press 
Secretary; Carla Hultberg, Minority Chief Clerk; Elisa LaNier, 
Minority Deputy Clerk; Lucinda Lessley, Minority Policy 
Director; and Rory Sheehan, Minority New Media Press Secretary.
    Chairman Issa. Good morning. The committee will come to 
order.
    We on the Oversight Committee exist to secure two 
fundamental principles. First, Americans have a right to know 
that the money Washington takes from them is well spent. And 
second, Americans deserve an efficient, effective government 
that works for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers, because taxpayers 
have a right to know what they get from their government. It's 
our job to work tirelessly, in partnership with citizen 
watchdogs, to deliver the facts to the American people and 
bring genuine reform to the Federal bureaucracy.
    My opening statement says in the last 10 years--Mr. Walker 
and others I'm sure will agree--that the growth in government 
goes far further back, and the last reorganization occurred 
before virtually everyone in this room and perhaps everyone 
watching this was born. Government in fact is currently too big 
to manage. This is not to disparage those who try to manage, 
this is not to disparage those who work in government. But like 
General Motors in its heyday, IBM at its largest, or United 
States Steel, any organization as it grows needs to ask the 
question, are we organized for our current business model?
    I believe that when we look at waste, fraud, and abuse in 
government in the tens and hundreds of billions of dollars and 
realize that we're back year after year with the same report, 
that it should be a wakeup call that the fundamental 
organization of government is part of the problem.
    I came from the private sector. Much smaller company. But 
one thing I know is when you're growing you worry about 
growing. When you're at war, America worries about being at 
war. When there's a tragedy, America focuses on it as much as 
the press.
    Today, we are nearing the end of a war. Our country is 
growing slower than at virtually any time in modern history. We 
have just come out of a recession in which we do not have a 
healthy and robust rebound. More importantly, on a bipartisan 
basis, this country voted for sequestration. We voted to say 
government was too big. Then when it came time to actually deal 
with the effects of sequestration, we were shocked, shocked 
that in fact there would be a cost to reducing the spending.
    This is part of a structural problem within our system. We 
really don't make a decision about what should be spent, we 
make a decision generations ago about what could be spent and 
then as it gets spent in greater and greater amounts, whether 
it's Social Security, Medicare, Medicaid, the food stamp 
program, we have no checks, no real ability to say how much can 
we afford, because they're entitlements. In discretionary 
spending we lament that there isn't enough for grants to 
various good-sounding programs.
    Now, this is all about spending, something that Washington 
talks about all the time. Today, our hope is that we talk more 
about the decision process of the executive branch. Congress 
will continue to be only as good as the executive branch is 
well organized, their budget process transparent, their 
spending available to be scrutinized both by the Congress--on 
rare occasions alone--and for the most part by the American 
people.
    That's certainly not what it is here today. It sounds 
partisan to say this administration is not the most transparent 
in history, but it's true. The fact is the most transparent 
administration in history, you'd have to go back 200 years or 
more. You'd have to go back to a time in which government's job 
was fairly simple. The only reason it wasn't more transparent 
is perhaps it took too long for someone to ride from place to 
place to find out where it was spending. But at any given time 
you could find out what the Army of the Potomac was buying, 
what their needs were, and pretty much figure out as well as 
the commanding general who was showing up and who was enlisted.
    Today we have vast computer systems, spending somewhere 
over $80 billion and perhaps as much as $100 billion on 
programs that fail more than 10 percent of the time. That 
should tell us that the very systems that we try to put into 
place to give us the facts and figures are in fact part of our 
failure.
    Too often the complexity has more to do with the political 
process than the organizational process. This occurs in the 
private sector, but not nearly the way it does here in 
Washington. It is politically correct to have a Secretary of 
Homeland Security. It is politically correct to have a 
Secretary of Veterans Affairs. It is essential to have all of 
these Cabinet positions until they come before Congress and two 
things occur. They tell you it's another Cabinet position or 
it's OMB that's responsible or, as has been mocked lately, they 
simply say, ``I don't know, I'll get back to you,'' to 
virtually every question.
    That isn't new. It's been happening in administration after 
administration. It's time for bold reforms. It's time for 
Congress to make a decision that we have to disconnect the 
political process that has given us simply more and more 
Cabinet positions. If the President were to sit with everyone 
who is either a Cabinet or an independent agency at his desk, 
he of course would have the 24 or so people who recognize 
themselves as Cabinet level, but he'd have at least 74 people 
at that table. I only know that because there is at least 74 
IGs who are principals.
    We need to organize government in a bold new way, one that 
says there is functional responsibility and that functional 
responsibility can be seen and the American people can count on 
that individual to be the responsible party. On a very 
bipartisan basis, the ranking member and I introduced a bill, 
along with Mr. Connolly and others, that tried to bring that 
kind of accountability to the CIOs, the chief information 
officers around government, ensuring that if they had the title 
they had budget authority.
    Ladies and gentlemen, that's a very small step, and it's 
not nearly bold enough. Every Cabinet position should be a 
principal advisor to the President. But everyone with budget 
authority should be defined in a way in which that budget 
authority, the origination and the handling of it, holds them 
accountable. I for one would love to have a day in which 
Cabinet officers for the most part never came before the 
Congress, because their primary job is to work with 
subordinates of appropriate areas of government and then advise 
the President as that principal advisor to the President.
    I will close in saying that in preparation for today not 
only was I pleased to see the level of the panel we'll have for 
discussion, but I reflected on my days in the military very 
long ago and what I've seen since. The military is not 
organized for efficiency. Thank God they are not. They are 
organized for effectiveness. But they do have some principles 
that don't exist very well in the rest of government. They have 
too many people up the chain of command for a reason: If one is 
killed, the other must take command. But in the military, with 
rare exceptions, you know who you work for, you know who has 
UCMJ authority, you know who can control the decisions of money 
being spent at any level up and down the chain.
    So as we look at reorganizing government, including the 
Department of Defense, let's look at models in which 
accountability is dramatically easier to find and then make it 
an appropriate hybrid for the many agencies of government, 
whether it's the National Institute of Health, the GAO within 
Congress itself, or the vast organizations that today are 
organized over historic lines and not necessarily logical or 
functional lines.
    I'm joined today with my partner Mr. Cummings in this 
effort. This is one of those days and one of those items in 
which government knows we have to do it. The question is, will 
you help teach us how?
    With that, I recognize the ranking member.
    Mr. Cummings. Thank you very much, Mr. Chairman. Thank you 
for calling this hearing. As I was sitting here I was thinking 
that there are two words that I say to my fellow employees 
every day, and they are government workers, as I am. I talk 
about effectiveness and efficiency, effectiveness and 
efficiency. And what I've said to them, if we cannot be 
effective and efficient in what we're doing, we might as well 
go and play golf, even if we don't play golf.
    Life is short. We're here for a short period of time and 
then we're gone. This is our watch.
    And so, Mr. Walker, it's good to see you again. As the 
former Comptroller General, you know firsthand how important 
congressional oversight is to making government more effective 
and efficient. The GAO is one of the most important tools 
Congress has in conducting that oversight, and I want to thank 
you for your years of service and I want to thank you for being 
here today.
    In February, GAO issued its third annual High Risk Report. 
The report details the most pressing challenges facing our 
Nation and the Federal government. In my opinion, the committee 
should be using that list as a roadmap for our oversight 
efforts. For example, GAO made the landmark decision to add to 
its High Risk Report the issue of climate change, which affects 
agencies across the Federal Government, as well as State and 
local jurisdictions and many of our constituents.
    According to GAO, the government has already spent billions 
of dollars on damage from severe weather events related to 
climate change. And the manner in which we organize ourselves 
to deal with this threat will determine the results we achieve. 
Again, we are talking about effectiveness and efficiency, that 
is, using the taxpayer dollars effectively and efficiently.
    For example, in April, GAO issued a separate report on the 
threat climate change poses to the billions of dollars we 
invest every year in infrastructure such as roads and bridges. 
Ladies and gentlemen, this is America. We can't have roads and 
bridges falling apart. We're better than that.
    Mr. Chairman, in February, I sent you a letter requesting 
that the committee hold a series of hearings to address each of 
the four areas GAO highlights in its High Risk Report relating 
to climate change. You agreed to hold those hearings, and you 
said, and these are your words, ``I believe we need to kick off 
the first hearing related to that risk. And I look forward to 
scheduling that hearing and also suggesting that our committees 
of jurisdictions do their oversight related especially to these 
areas--specifically to those areas.''
    It's now been over 4 months, but the committee has not held 
any hearings on this issue, and I'm sure we will. Mr. Chairman, 
I hope we can move forward in a bipartisan way to begin 
addressing this critical threat to public health in our 
economy. Again, we're only here for a season.
    Another area the committee should examine is wasteful 
spending in government contracting. Earlier this month, the 
administration sent a legislative proposal to stop excessive 
payments to Federal contractors. I might add that this is an 
interesting area because we have Federal employees who are 
taking 3 years of pay freezes. Some on furloughs. Some have 
actually lost their jobs. But at the same time, under current 
law, contractors can receive reimbursement for executive 
salaries and bonuses, and the cap on these reimbursements is 
$763,000 and it's set to rise to $950,000. That is almost a 
million dollars.
    As one of my employees said to me just yesterday, 
Congressman, my baby-sitter--daycare center costs me $1,200 a 
month. She's got a $45,000 salary, and her salary has been 
frozen. It is outrageous that taxpayers are paying these 
salaries for the executives of contractors while Federal 
employees are being furloughed. The committee should hold a 
hearing on the administration's proposal to stop this waste.
    Today we will hear additional ideas, and I look forward to 
hearing them, for identifying efficiencies in government 
spending through the establishment of a commission. As we 
consider these ideas, I urge my colleagues to keep in mind that 
it is the job of the United States Congress, all of us, we were 
elected, representing at least 700,000 people each, first and 
foremost to oversee the executive branch. That's our job. That 
that's what we were elected to do. That's what we were paid to 
do. Congress has the authority and responsibility to conduct 
oversight and to enact reforms, and this committee in 
particular has jurisdiction over interagency reorganizations. 
We should not shirk that responsibility, we should embrace it.
    However, I think it is very important that when we have 
brilliant minds coming together making recommendations to the 
Congress, as we have all the time, and David Walker is one of 
the most brilliant, we need to hear what they have to say and 
be open to trying to make those changes that are, as the 
chairman said, bold, so that everybody comes out in a win-win 
situation. Not some folks winning and Federal employees losing.
    I get very emotional about Federal employees because I see 
them every day, on both sides of the aisle. I see them working 
long days and long nights, David. You had them. And they give 
their blood, their sweat, and their tears. And they are 
concerned, as they should be. And I hope that when you address 
these issues, Mr. Walker, you will talk about that, because I 
think sometimes Federal employees get a bad rap. And I keep 
reminding my colleagues that we are Federal employees.
    I hope the chairman will work with me and the other members 
of the committee to exercise that responsibility by conducting 
vigorous oversight and taking up responsible legislation that 
directly addresses wasteful spending.
    So, Mr. Chairman, I anxiously look forward to this hearing. 
We certainly want to see government function properly. We want 
to not be in a situation that I found myself in not very long 
ago, and you've heard me talk about, Mr. Chairman, I'll talk 
about it until I die, because it was shocking, as I was 
chairman of the Committee on Maritime and Coast Guard under the 
Transportation Committee, and we were spending hundreds of 
millions of dollars on boats that didn't float, radar systems 
that were supposed to cover 360 degrees that covered 180. Come 
on now. This is America. Radios for these boats that if they 
got wet they didn't function.
    And so there has got to be better ways. And I hope that 
you'll address this, too, our panelists, I hope you'll address 
this: How do we make sure we get it done? How do we make sure 
that we bring forth proposals that people can have buy-in. You 
know, sometimes we try to force things on folks, and it doesn't 
work. You know, sometimes you've got to find out how can you 
pull forces together so that they can work together to be a 
part of something to make it work, as opposed to talking and 
not getting anywhere.
    And, David, I know you don't want to waste your time, your 
time is valuable, and all of you. I'm looking forward to 
hearing from you, and thank you very much. And I yield back.
    Chairman Issa. I thank the gentleman.
    All members will have 7 days to submit opening statements 
and extraneous information for the record.
    And, for the record, Ranking Member, as you know, last week 
we had suspension and debarment, which primarily was about--
exclusively was about contractors. But I would announce that 
next Wednesday we will be having a procurement issue that I 
know the ranking member has worked with me on related to the 
IRS. So that'll be next thing. But, again, it's an outsourcing 
that we believe was wasteful and needs to have reform.
    Mr. Cummings. I look forward to it.
    Chairman Issa. With that, we welcome our panel of 
witnesses. As previously mentioned, the Honorable David Walker, 
who currently serves as chairman of the Government 
Transformation Initiative. And the Honorable Stephen Goldsmith 
is professor of government at the Harvard Kennedy School. Dr. 
Kamarck is director of the Management and Leadership Institute 
at Brookings.
    Welcome.
    Mr. Daniel Chenok is executive director of the IBM Center 
for the Business of Government. And I did mention IBM. You are 
in your heyday. I was referring to the heyday of the number of 
employees that IBM had, which once was probably second only to 
a car maker.
    And Mr. David Cox, who is the national president of the 
American Federation of Government Employees.
    Pursuant to government rules, would all witnesses please 
rise, raise your right hand to take the oath? Do you solemnly 
swear or affirm the testimony you are about to give will be the 
truth, the whole truth, and nothing but the truth?
    Thank you. Please have a seat.
    For the record, all witnesses answered in the affirmative.
    It's a large panel today, but it's a great panel. So I 
would ask only that you recognize that your entire opening 
statements will be placed in the record. We will try to stay 
strictly to the 5 minutes because we look forward to the Q&A 
and dialogue that I believe is essential if we are to begin 
thinking about not who the alligators in the swamp are, but how 
do you rearrange and make it a little dryer so that perhaps 
it's not so much of a swamp.
    And with that, Mr. Walker.

                  STATEMENT OF DAVID M. WALKER

    Mr. Walker. Good morning, Chairman Issa, Ranking Member 
Cummings, and distinguished members of the this committee. I'm 
honored to be here to provide information about actions that 
can be taken to improve the economy, efficiency, effectiveness, 
and credibility of the Federal Government.
    I bring a somewhat unique perspective based upon my over 40 
years of experience in all three major sectors of the economy, 
20 years in the private sector, 15 years in the Federal 
Government, including almost 10 years as Comptroller General of 
the United States and head of the GAO, and now 5 years of 
nonprofit experience. As was mentioned by the chairman, I'm 
testifying today as chairman of the Government Transformation 
Initiative, which aims to create a Government Transformation 
Commission to transform the Federal Government in order to 
improve its operational performance.
    GTI is a coalition primarily of not-for-profit entities, 
but some for-profit entities, dedicated to helping improve 
government performance for the benefit of the American people. 
As a former U.S. Comptroller General and head of the GAO, I 
know firsthand about the serious fiscal and operational 
challenges facing the Federal Government. Many, including the 
GAO, have identified various fragmentations, redundancies, 
duplication, and operational inefficiencies across the Federal 
Government.
    For example, GAO issued its first High Risk List in 1990. 
At that time, there were 14 items on the list. The latest list 
has 30 items. More recently, beginning in 2011, GAO has been 
required by law to issue reports identifying areas where 
agencies can achieve greater efficiency and effectiveness. From 
2011 to 2012, GAO identified 131 areas that could be improved. 
In a report issued in April of 2013, GAO identified an 
additional 31 areas for opportunity for greater efficiency and 
effectiveness. Most of these deal with redundancy, overlap, 
type of issues.
    And in their latest report, GAO identified fragmentation 
regarding renewable energy initiatives, which was mentioned 
previously, whereby 23 different agencies have a variety of 
initiatives involving billions and billions of dollars.
    There are many examples of inefficiency in government, but 
I agree that some of the most dedicated, highly educated people 
that I've ever worked with are government employees. Most of 
the recommendations have not been acted on, unfortunately. And 
in many cases the reason being is because the GAO has made a 
policy decision that they will not make recommendations to 
consolidate, terminate, cut, or add resources to particular 
agencies. They view that as a policy decision beyond their 
purview, and in fact most inspectors general feel the same way. 
And so therefore many times they will end up issuing great 
reports with great insights but they do not make specific 
actionable recommendations that Congress can act on. And in 
other cases, which I'll mention, when those are made, for a 
variety of reasons, Congress does not act.
    The desire for the Federal Government to operate more 
efficiently and effectively is certainly not a new phenomenon. 
For example, in 1905 President Theodore Roosevelt created the 
Keep Commission that was designed to improve the administration 
of government services. And I outline in an attachment to my 
testimony many other commissions, both executive and statutory, 
that have occurred over the last hundred-plus years.
    The most successful of the 20th century efforts involve two 
Hoover Commissions created by the Congress under Presidents 
Truman and Eisenhower. These were statutorily created 
commissions intended to review and make recommendations for 
reorganizing and improving the operations of the Federal 
Government.
    Improving upon and learning from these past efforts, the 
Government Transformation Initiative advocates for the 
establishment of a statutorily created Government 
Transformation Commission modeled after the Base Realignment 
and Closure process, the so-called BRAC process, a civilian 
BRAC. It would capitalize on the best practices of past 
commissions and leverage existing resources from GAO, the 
inspectors general, the congressional staff and others. The 
Government Transformation Commission would conduct independent 
and professional reviews that would result in specific 
actionable recommendations to the President and the Congress 
that could improve economy, efficiency, effectiveness, and 
credibility of the Federal Government.
    Unlike the Simpson-Bowles commission, the Government 
Transformation Commission would not make policy recommendations 
regarding taxes, social insurance programs, or other policy 
areas. But it will focus on operational and management matters. 
Workforce reduction is not the focus of the Government 
Transformation Commission. If adjustments, eliminations, or 
consolidations are made to programs or activities, it would not 
necessarily result in the loss of Federal jobs because most 
individuals would be able to be redeployed within the Federal 
Government.
    In addition, there is little question that there are too 
many government contractors in certain situations and not 
enough controls and safeguards over them. The work of the 
commission could result in replacement of certain government 
contracts by government employees. However, it's clear that 
some civil service reforms would be required to attract and 
retain the full range of professionals.
    In summary, Mr. Chairman, I think the key is this: The 
Federal Government has a serious fiscal and operational 
challenge. We're going to have to put our finances in order. 
It's going to require tough choices. No matter who the 
President is, no matter who is in charge of the Congress, we 
have a duty to operate in an economical, efficient, and 
effective manner. It's highly unlikely that there will be a 
grand bargain this year. Something needs to be done to be able 
to send a signal to the American people that the Congress can 
work together with the President to do something that will 
benefit the American people. We believe this could be that 
action.
    I'd be happy to answer any questions that you may have. 
Thank you again for the opportunity to testify, Mr. Chairman 
and Ranking Member Cummings.
    Chairman Issa. Thank you, Mr. Walker.
    [Prepared statement of Mr. Walker follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Mr. Goldsmith.

                 STATEMENT OF STEPHEN GOLDSMITH

    Mr. Goldsmith. Thank you, Mr. Chairman, members of the 
committee. It's my honor to be here. Unlike many of the other 
distinguished panelists, I spent most of my time in State and 
local government; I was the Mayor of Indianapolis, Deputy Mayor 
of New York, and run the Innovations in American Government 
program at Harvard.
    Chairman Issa. Welcome to big government.
    Mr. Goldsmith. Thank you. I think that's the right word, 
sir.
    But I do study bureaucracies, and in support of the 
commission that's been discussed. So I'd just like to take a 
few minutes to identify what I think are the obstacles to 
efficient and effective government. And like the chairman and 
ranking member have both mentioned, you know, every day I see 
public officials who are doing great and heroic work. But 
generally they are doing it despite the structure of 
government, not because of the structure of the government. And 
what this transformation commission could do, and the same 
thing is being done by some city and State level officials as 
well, is kind of changing the structures of government. Let me 
just mention a few of the issues that I see.
    First that we have developed a system where the public 
officials, bureaucrats, perform activities, right? Their 
discretion has been narrowed, they are not trusted with 
discretion or problem solving, and we get routine activities. 
And that comes from a period of time a hundred years ago where 
the only way to have honest government was to have hierarchies 
and control and command and rules and narrow the discretion. So 
today the way we've ensured that we don't have public officials 
who abuse their discretion is make sure they have no discretion 
to abuse at all. So they can't really solve any problems.
    So as we look at this in a world of digital analytics and 
other ways of holding public officials and employees 
accountable, I suggest we begin to look again at how we can 
have discretion and accountability without saying we have to 
choose one over the other.
    Secondly, government at all levels purchases activities and 
not outputs or outcomes. And when you purchase activities, you 
get more activities. If you purchase medical procedures, you 
get more medical procedures. If you purchase homeless shelter 
beds, you'll more homeless shelter beds. But perhaps a 
transformation commission should look at how both the executive 
and the legislative branch can require more in terms of 
outcomes and outputs and a little less in terms of kind of 
inputs.
    Third, we see across private sector, and in my experience 
with local and State officials is public employees want to 
solve problems. They are in public service because they want to 
serve the public. And the hierarchies that we've layered onto 
public employees ensure that there are extensive hierarchies 
and unnecessary hierarchies, and they reduce the ability of 
well-intentioned public employees to solve problems. So a 
transformation commission should look at whether all these 
levels of bureaucracy and oversight and hierarchies really 
accomplish anything or whether they're just sources of expense.
    Then, Mr. Chairman, members of the committee, as we look at 
the transformation commission, and David has mentioned this a 
little bit as well, as you both have, the structures of 
government need to be reevaluated. The job classification 
system that served a purpose at one time now actually is not 
conducive to the effective and efficient government that we 
want to create. We see across the country in mayors offices and 
statehouses an explicit development of innovation offices, 
right? If you're going to drive transformative, innovation has 
to be somewhere outside of the day-to-day activities, somebody 
who has a responsible for innovation. And we're seeing that as 
a very successful model.
    And then, as everyone has mentioned thus far, I have a fair 
amount of experience in public-private partnerships. And I 
would suggest that the bilateral choice that we've accepted, 
which is government employee, private sector, let's choose 
between the two, is no longer really an accurate reflection. 
Every complicated public enterprise today is a mixture of 
public and private and often nonprofit. The question is, do we 
have the acquisition workforce necessary to purchase what we 
need, to control what we need, to integrate the pieces that we 
need?
    And so in that regard, I'd suggest that this discussion of 
public-private partnerships and the structures of 
privatization, if you will, are outmoded and out to be 
rethought as well as we combine these together.
    Two last quick points. We've set up government, I guess 
necessarily, as a vertical structure, right? It's easy for me 
to think about this in city government, right, there's a street 
department and a sewer department and a parks department. 
People don't live in verticals, they live in horizontals, they 
live in neighborhoods.
    And as we think about a government transformation, we need 
to think about portfolio management. If we're going to have big 
solutions to big, complex problems, they go across government, 
they don't go down through government.
    And then, lastly, we have a true revolution in data and our 
ability now to find out waste, fraud, and abuse, to find out 
high performers and low performers. To identify people who need 
assistance, to identify public employees who are not performing 
as they should is much better. And so data analytics, 
predicting and solving problems before they occur, looking at 
the employees that need help is all possible.
    So, Mr. Chairman, members of the committee, I think there 
are very specific things we can do. I think we have, like, a 
once-in-a-century opportunity to do it, and I'm in support of 
the commission that's been suggested. Thank you for the 
opportunity to present.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Goldsmith follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Dr. Kamarck.

                 STATEMENT OF ELAINE C. KAMARCK

    Ms. Kamarck. Thank you. It's an honor to be with you today. 
I'd like to start by discussing my experiences in government 
reform.
    In 1993, President Clinton and Vice President Gore asked me 
to run the National Performance Review, otherwise known as 
Reinventing Government. At the request----
    Chairman Issa. You'll notice we stole that title again 
today.
    Ms. Kamarck. I think it's terrific. You know what they say, 
is imitation is the sincerest form of flattery.
    At the request of the President, the project did not end 
with the issuance of a report in 1993. Under the direction of 
the Vice President, the project continued for the two full 
terms of the Clinton administration. More reports were issued, 
but, more importantly, we tracked the implementation of every 
aspect of those reports. The duration of this effort makes it 
the longest government reform effort in modern American 
history.
    There are many ways to measure the results. Let me start 
with a few statistics and then go to some of the lessons that I 
think are applicable today. We reduced the Federal workforce by 
426,200 people, making it the smallest Federal workforce since 
Dwight Eisenhower was President. It was a 24 percent cut in the 
number of employees. We acted on more than two-thirds of the 
recommendations, yielding $136 billion in savings to the 
taxpayer. We cut government by eliminating what wasn't needed: 
bloated headquarters, layers of managers, outdated field 
offices, obsolete red tape and rules. At one point, at the end 
of 1999, we had cut 78,000 managers government-wide.
    We conducted a regulatory review that resulted in cuts 
equivalent to 640,000 pages of internal agency rules. We closed 
2,000 obsolete field offices, eliminated 250 programs and 
agencies, among them the Tea-Tasters Board and the wool and 
mohair subsidies, which have simply crept back into the 
government, okay, showing what a hard job this is. We passed a 
government-wide procurement bill which led to the expanded use 
of credit cards for small-item purchases, saving more than $250 
million a year in processing costs.
    But the Reinventing Government Initiative was not just 
about cuts, it was also about modernizing and improving the 
performance of government. In that regard, it was responsible 
for three revolutions in government that continue to this day, 
built on by subsequent administrations, both Democrats and 
Republicans.
    The performance revolution: We initiated the Government 
Performance and Results Act. The Bush administration added to 
that by the famously acclaimed PART process, and the Obama 
administration has recently signed into law amendments 
modernizing GPRA.
    The customer revolution was begun under the National 
Performance Review. The Bush administration continued use of 
customer surveys. The Obama administration has recently done an 
executive order on customer service.
    And the innovation revolution, which was really using 
information technology, we had the advantage of being there at 
the start of the Internet, so we could bring government online 
was, in fact, promoted also by the Bush administration and the 
Obama administration is doing some fantastic things in this 
area.
    All of this resulted in a doubling of trust in government 
over the 8 years of the Clinton administration. It is the 
biggest, longest period of increase in that very difficult 
number.
    So let me look at some lessons for the future. It's been 20 
years since there's been a major government reform effort. You 
can't really fault anyone. The Bush administration had an 
unprecedented attack on its soil to cope with, the Obama 
administration had an unprecedented economic crisis. But it's 
time to return to the basic functioning of government and to 
have a look at it in the way I think that David Walker has 
proposed.
    First of all, there's two ways to cut the government. 
Obviously, sequester is unacceptable because it fails to 
differentiate the efficient from the wasteful, the critical 
from the obsolete. Secondly, as the Government Transformation 
Initiative points out, the same problems are identified year 
after year and not solved. That is because there are no easy, 
across-the-board answers. Third, show me an inefficient, 
obsolete, or wasteful government practice, and I can promise 
you that someone in the private sector is making money off it. 
And that makes this process more difficult. Fourth, calculating 
efficiency in the government often involves a complex process 
of finding similar benchmarks against which we can measure 
efficiency. And fifth, it is the career bureaucrats, the 
Federal employees that Congressman Cummings talked about, who 
know better than anything else what works and what doesn't. A 
successful reform effort cannot take place without their full 
participation and buy-in.
    We face two challenges here. We face a budget deficit which 
are at all-time highs, and we face a trust deficit of the 
American people. A serious bipartisan reform effort such as the 
one on the table today could do wonders for both those 
deficits.
    Chairman Issa. Thank you.
    [Prepared statement of Ms. Kamarck follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Mr. Chenok.

                 STATEMENT OF DANIEL J. CHENOK

    Mr. Chenok. Good morning, Chairman Issa, Ranking Member 
Cummings, and distinguished members of the committee. I am 
pleased to have the opportunity to testify before you about 
reinventing government and to support transformation that works 
for citizens, businesses, and government employees.
    I'd like to thank the committee for its leadership on these 
efforts over the years. My past work experience at the Office 
of Management and Budget, where I spent over 13 years as a 
Federal employee, intersected closely with the efforts of this 
committee, especially during my last 5 years, where I served as 
the leader of OMBs Information Policy and Technology Office at 
the end of the Reinventing Government Initiative, as well as 
prior to and during the passage of the E-Government Act and 
FISMA in 2002.
    I'm currently the executive director of the IBM Center for 
the Business of Government. The center sponsors independent 
studies and presents in-depth reports about public managers and 
Federal employees who are leading the way to positive change in 
the way that government performs.
    Government transformation is always a challenge given 
existing structures. An entity dedicated to bringing real and 
positive change to the public sector, such as the Government 
Transformation Initiative's proposed commission, may be an 
effective means of achieving these results. My testimony today 
will focus on specific substantive areas that could pave the 
way for sustained transformation in government.
    First, it's important to recognize that numerous fiscal, 
technological, and social forces are bringing unprecedented 
complexity to government, leading to a set of pressures unlike 
any combination of factors that we've seen in the past. Our 
center will soon issue a call for research into practical ideas 
for transforming government to achieve better mission and 
program goals in this environment.
    These ideas fall into six drivers for change. First, 
developing cost-saving strategies and improve efficiency and 
effectiveness. Second, fostering innovation and transformation, 
such as incorporating a new technology into an agency's daily 
operations to improve services. Third, aligning mission support 
with mission delivery so that chief financial and information 
officers and others can better integrate with programs to 
achieve results. Fourth, making best use of performance and 
results management by using performance information to drive 
decisions in addition to tracking progress. Fifth, managing 
risk in a rapidly changing world so that government can 
understand and communicate risks in much the same way that 
companies do. And sixth, developing new models of public 
leadership within and across agencies whereby leaders work 
together to achieve change and gain buy-in across 
organizational lines.
    Individually, research into each of these six areas will 
provide important knowledge about what tools and approaches 
work best. Collectively, they can point to changes across a 
broad array of functions that can help government keep pace.
    Indeed, government transformation does not usually happen 
by getting one thing right; rather, it happens because 
committed teams of managers and employees, often working with 
the nonprofit and commercial worlds that support government, 
put together an effective, responsive, and multifaceted change 
strategy.
    I would now like to discuss a number of areas where 
transformation strategies can lead to real efficiencies for 
government.
    The first area emerges from our center's 2010 report, 
``Strategies to Cut Costs and Improve Performance,'' which 
identified leading commercial practices that could be applied 
in the Federal Government. My colleague from the IBM Center, 
John Kamensky, testified before this committee in February 
about how our research pointed to different paths for 
transforming, which are described in my written testimony.
    The second area comes from a new Center report, ``Fast 
Government: Accelerating Service Quality While Reducing Cost 
and Time.'' ``Fast Government'' addresses different strategies 
and tools that can help achieve change quickly and cost 
effectively by focusing on how the element of time can bring 
value to the public sector. ``Fast Government'' covers a 
variety of approaches to speed up government while also 
improving services, which are detailed in my testimony and 
include accelerating the delivery of government programs by 
requiring fewer process steps, such as moving from 10 
signatures to 3; finding new ways to perform a given set of 
tasks more quickly, such as moving from an assembly-line 
approach to a parallel process; creating interactive services 
so that citizens can solve their own problems, such as creating 
a self-service Web site; and using predictive analytics to 
reduce or eliminate entire processes, such as reducing improper 
payments in the first place, rather than spending time to 
recoup payments.
    At the heart of any effort to make government work faster 
will be a focus on three variables: people, process, and 
technology. Perhaps the most important of these is the human 
factor because it's people that make government processes run. 
One of the key elements in implementing ``Fast Government'' is 
ensuring that employees have the skills and capabilities to 
succeed.
    Thank you, Chairman Issa, Ranking Member Cummings, and 
members the committee. I look forward to the opportunity to 
answer your questions about this important topic and the 
potential for a commission in moving it forward.
    Chairman Issa. Thank you.
    [Prepared statement of Daniel J. Chenok follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Mr. Cox.

                   STATEMENT OF J. DAVID COX

    Mr. Cox. Mr. Chairman and members of the committee, thank 
you for the opportunity to testify today. I believe that the 
GTI coalition's proposal to appoint seven unaccountable wise 
men and women to take over much of the role of Congress is 
unwise, and I urge you to stop it in its tracks.
    All of us believe in democracy and apolitical management of 
government. In that context, the notion envisioned by GTI of 
investing enormous power in the hands of seven unelected 
individuals is offensive. GTI claims its commission would be 
above politics and would dispassionately analyze the government 
for efficiency, effectiveness, and redundancies. But we know 
these assurances are nonsense. It would be the commission 
behind closed doors where the powerful reign supreme and the 
interests of many are ignored. Commissioners would be lobbied 
intensely by special interests, including the corporate 
sponsors of the GTI coalition members with vested interest in 
expansion of contracting out. The only role for elected 
officials, those operating in the light of day and subject to 
accountability from a broader constituency, would be a quick 
thumbs up or down on a law that might completely remake our 
Nation's government.
    Further, we know that in spite of GTIs assurances, the 
commission's agenda would involve fewer rights for Federal 
employees, fewer safeguards to protect government from 
political interference, more costly and unaccountable 
outsourcing, and lower quality and quantity of services 
provided to the public.
    One point cannot be emphasized strongly enough: 
Sequestration, furloughs, RIFs, pay freezes, spending caps, 
personnel ceilings, hiring freeze are all the direct result of 
the campaign by some of the same groups now pushing the 
formation of this commission to make Americans believe that 
deficit spending during a recession with persistent high 
unemployment is worse than high unemployment, and that the 
solution to a deficit caused by the collapse of a housing 
bubble is to cut Social Security benefits.
    If you like that reasoning, then you'll love the GTI 
commission's ideas about how to make the government they 
underfunded more efficient. GTIs vision is to transfer power 
from the legislative branch to its unpaid commissioners. In 
many cases, it would reduce Congress' role in authorization and 
appropriations to a simple up-or-down vote on whether to 
continue to authorize and allocate funding to the programs 
selected by the wise men and women.
    Does the VA Committee want to cede its authority to make 
decisions about veterans' health care and benefits? Does the 
House Armed Services Committee want GTI to take over defense 
authorization, deciding what is duplicative, efficient, and 
effective? The committees of jurisdiction could be forced to 
bow to the wisdom of unelected commissioners aided by the 
product consultants of GTI if Congress agrees to this proposal.
    What if a majority likes what they do with DOD and SSA, but 
does not want to approve of anything they propose for Commerce 
or Homeland Security? No amendments would be allowed. Even if 
GTI decides--and it would be their decision--to offer Congress 
agency-by-agency packages for approval, it still amounts to a 
usurpation of the role of Congress.
    There are other, more practical concerns. The government 
employs nurses in the VA, DOD, Bureau of Prisons, the Indian 
Health Service, at NIH, and other agencies. Are these services 
duplicative? A GTI management consultant with no concern for 
the impact on veterans, soldiers, inmates, Native Americans, or 
cancer patients could say yes in order to secure a contract or 
show savings in year one. What if the merging of nursing 
functions in one easy-to-contract-out agency was a small 
element in the GTI package?
    Clearly, our system of government that allows congressional 
committees and their staffs to develop deep expertise into 
individual agency operations is a better alternative than a 
commission of seven wise men and women who are so rich that 
they can serve a 3-year term without pay. There is nothing any 
commission could recommend that could not be accomplished with 
a regular legislative process. You all can introduce bills with 
amendments and those things.
    Finally, the corporations for whom democratic processes are 
a nuisance and a bother, with a commission they can control 
behind the scenes, they can exactly do what they want without 
the hassling of lobbying or trying to manufacture something for 
public consumption.
    Thank you. I'll be glad to answer any questions.
    [Prepared statement of J. David Cox follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Mr. Cox, do you have any facts to back up 
your allegation repeatedly in your opening statement that this 
is all about private sector trying to do something to the 
expense--in other words, you've alleged both in your written 
statement and now in your opening statement, effectively, a 
conspiracy. Do you have any evidence of that conspiracy?
    Mr. Cox. Mr. Chairman, I don't view it as a conspiracy. But 
I clearly view it that it's an opportunity to try to contract 
out the government work that goes on that's very important.
    Chairman Issa. Well, I can assure you that's not what this 
hearing is about.
    Now I'll go through my round of questioning.
    Mr. Cox, as a short statement for all of you, over the 
decade-plus that I've served in Congress, I've learned one 
thing: Organizational representatives like yourself exist to 
collect union dues and to maintain a large workforce. However, 
the workforce itself is generally more concerned at being 
efficient and effective. Yes, they worry about whether their 
job is going to be kept. But in the long run, they want to be 
proud of the organizations. When I meet with Federal workers, 
what I generally find is they're irritated when a contractor is 
paid more, delivers less, and is less flexible than they are.
    One of the questions I have for this panel, and I'll start 
with Mr. Walker and go to Mr. Goldsmith and so on, is in the 
process beyond just reorganizing government, how do we restore 
the honest broker role of the decision makers in government? 
Mr. Cox went through a very long opening statement that really 
just said you can't trust corporate America, you can't trust 
contractors, and so on. I'm going to agree with him to a 
certain extent. We have to find people who do not represent the 
status quo who in fact do not want to have endless, continued 
large bureaucracies; in other words, who are not supported by 
the growth of bureaucracy as how they gain merit.
    Mr. Walker, you dealt with this at GAO. How do we get the 
honest broker, not just in your commission, but in the days and 
weeks and years that come afterwards in the decision process, 
including procurement, which is an area this committee is very 
concerned with?
    Mr. Walker. Mr. Chairman, let me mention two things. First, 
the GTI. It's critically important that the seven persons, or 
however many, you know, the Congress and the President decided 
would be appropriate, be capable, credible, and nonconflicted. 
You have to have people who have proven transformational change 
experience in the public sector, private sector, not-for-profit 
sector. You have to have people----
    Chairman Issa. No, I get it on the proposal. But my 
question is much more narrow; hopefully, we can go quickly.
    Mr. Walker. Sure.
    Chairman Issa. How do we get a government in which--for 
example, Mr. Goldsmith, you mentioned we need to give 
flexibility, we need to get out of this idea that there are no 
rules. But this committee, looking at GSAs decision making, 
IRSs decision making, when they had very fungible money, they 
threw themselves a party. I assume you're not talking about 
their ethics, but rather decision making when it's truly within 
the line of their obligation to deliver goods and services.
    Mr. Goldsmith. Yes, sir.
    Mr. Walker. Go ahead.
    Mr. Goldsmith. Your question----
    Chairman Issa. I'm trying to get through all of you 
quickly.
    Mr. Goldsmith. I know. Your question is so complex, I'm 
trying to figure out how to answer it in 30 seconds.
    So I would say this a couple ways. One, that in the end you 
all are responsible for these policy decisions. What we're 
discussing today is how most effectively and efficiently to 
deliver upon those policies that you implemented and the 
dollars that you appropriate. And to me, just to go back to the 
local level, every time that--the question is, what should 
government be responsible for, what should the government 
employee be responsible for? If the government employee has an 
acquisition workforce that's well trained, that's very 
sophisticated in the way they manage the private contractors, 
they're accountable for those.
    What we're dealing with today is not the outsourcing of the 
control of government, but the delivery of these products. In 
Indianapolis, as well as in New York City, when you ask your 
union employees to compete to do their work, right, to do their 
work in a proud way, they do it and they do it well. So in the 
end, I would suggest that this brokerage question you ask is 
owned by government, controlled by government, but we're going 
to have different delivery processes.
    And, finally, I don't think there should be any less 
accountability for the public employee. I'm just suggesting 
that accountability ought to be accountability for results, not 
just processes.
    Chairman Issa. Dr. Kamarck, when you were speaking of 
particularly the Clinton era, most of that activity was done by 
executive order, executive fiat, if you will. And much of what 
was done during the Clinton administration, effectively, you 
were very kind to say was continued. But certainly when we look 
at where government is, reduction in agencies and so on, that 
hasn't continued.
    When we look at reorganizing government structurally, and 
I'm not completely in Mr. Walker's camp on how a commission 
would be structured, but how do create something that to a 
certain extent existed under Hoover, which is Congress bought 
in, the executive branch bought in, and then over the years 
there was a constant activity that went on through multiple 
administrations? To a certain extent there really wasn't a 
Hoover II, there was a continuation under Eisenhower.
    How do we create that where Mr. Cummings and I could look 
and say, it's not like BRAC, it's not kind of a fire and forget 
and if you don't like it it's an up or down, but, rather, an 
apolitical process that then, if you will, uses the best of the 
executive branch authority and the best of congressional 
authority to do real reform and savings and to score it 
properly?
    Ms. Kamarck. Well, I think you open up an issue that has 
been talked about for a long time, which is I think this 
committee could reopen and reinvigorate the authorizing process 
in Congress; that what has happened over the years is that 
congressional committees are obsessed with appropriations----
    Chairman Issa. No, just the appropriators are obsessed. I 
have always been on authorization committees. I know the 
ranking member and I are very happy to bring back some 
authority to authorization.
    Ms. Kamarck. That's right. I think that between a 
commission like this, and you could build strong links to 
authorizing committees and reinvigorate their role in working 
out problems with the executive branch. Let's face it, what's 
happened over time is, as authorizing has decreased in time 
here in Congress, the authorizers wait for a crisis, at which 
point it's too late, you know, you've got a disaster going on, 
you've got a big problem, and the executive branch then is in 
scramble mode.
    I think that a committee like this could start to take some 
of those problems on the GAO High Risk List that David talked 
about, I think they could start working through them in 
conjunction with the authorizing committees, so that you get 
Congress back into a more productive oversight role as opposed 
to the house-is-burning-down oversight role which has been 
common in recent years.
    Chairman Issa. I want to be respectful of all the people's 
time. I go to Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Dr. Kamarck, I want to go back to something that you said 
that I am probably going to borrow on. The first time I will 
use it I'll give you credit, after that it's mine.
    Ms. Kamarck. That's the rule.
    Mr. Cummings. You talked about a trust deficit. Talk about 
that. I'm always trying to get to this whole thing of 
effectiveness and efficiency, and I believe that where there is 
no trust it's almost impossible to get anything done, be it a 
marriage, be it whatever. So talk about that for a moment.
    Ms. Kamarck. The United States has been suffering a trust-
in-government deficit for many decades now. In fact, in the 
1960s and 1970s trust in government was high. The all-time high 
was reached in the early 1960s when trust in government was 
about 74 percent. Gallup has been asking this same question, 
okay, for almost 50 years now, and in my testimony you'll see 
the Gallup poll that shows this.
    One of the things that we were proudest of in the Clinton 
administration is that we started out with a 17 percent trust 
in government. Only 17 percent of Americans trusted the 
government to do the right thing most of the time. As we began 
to work on reforming the government, respecting civil servants, 
okay, working with civil servants, working to fix government 
programs, publicizing our work, we got trust in government up 
to 42 percent. There was the biggest and most consistent 
increase. And we think that the efforts, just doing this kind 
of work contributed to that.
    Since then we had a peak around 9/11, which was a little 
artificial. Since then trust in government has consistently 
fallen and it's now back down at 19 percent.
    Mr. Cummings. But explain to me the significance of that 
with regard to transformation.
    Ms. Kamarck. I think that when the American people see the 
government working at efficiency, okay, whether it's closing 
even small programs that you and I know don't make any 
difference on the deficit because they're too small, when the 
American people see the government working at making the 
government effective and efficient, they then say, oh, yeah, 
they're not wasting my money.
    And, frankly, as a progressive or a Democrat, okay, let me 
say that I believe that for those people, for those of us who 
believe in activist government and would like to see government 
working more effectively, you cannot do that without the first. 
You cannot expand the government, you cannot ask people to 
support an expanded health care program, et cetera, unless you 
have people thinking that people who work in the government are 
working at these very basic issues of efficiency, 
effectiveness, don't waste money, get rid of obsolete programs, 
et cetera.
    Mr. Cummings. Well, let me just go back, and you agreed 
with something that I said a little bit earlier when I said 
that you have to have buy-in by the people who are there. And 
Mr. Cox represents, as he has already said, employees who their 
pay has been frozen, they see furloughs, they hear people who, 
they work for us, they hear negative statements over and over 
again. How do we get past that? In other words, I think you and 
I agree you have to have buy-in, but you have got a Mr. Cox who 
is doing his job representing people who are our neighbors, the 
people who make it possible for us to do what we do, the people 
who, in the words of my wife, allows us to feed our souls. So 
how do we bridge that?
    Ms. Kamarck. Well, part of the way you bridge that is you 
don't do across-the-board cuts, okay? Part of the way you 
bridge that is you have to do this deep dive into government 
and you have to make some pretty hard decisions.
    There are pieces of the Federal Government that we just 
don't need any more, okay? And so take that hard decision. Cut 
it that way. Don't cut everybody regardless of the important 
work that they're doing. And when you do it, it's a much more 
satisfactory way to do it, because you're distinguishing 
between things that you need, things that you don't need.
    Mr. Cummings. Dave, I want to hear from you in a second. 
But a lot of times I think about what we do here in Congress 
and I say to myself, if we ran our families like we run 
Congress, we would be in total trouble, because basically what 
you just said is the way people run their families.
    Ms. Kamarck. Sure.
    Mr. Cummings. They make practical decisions, they look for 
the efficiencies. If they have a problem, they don't throw away 
the baby because they lost a few dollars. They get the aunt to 
take care of the baby, to do the baby-sitting or something.
    David, what were you going to say?
    Mr. Walker. Well, first, trust is essential to make 
transformational change, and that means that the players matter 
and the process matters. And contrary to the assertions by J. 
David Cox, which I viewed as being largely fiction, there has 
got to be transparency and accountability associated with this 
process. Ultimately the Congress and the President make the 
decisions. This just a mechanism to be able to set the table so 
that decisions can be made that have not been made.
    Let me give you a case study, Mr. Cummings. When I became 
Comptroller General of the United States we did three things 
that the Federal Government has never done since 1789. We had a 
strategic plan, we had a budget, and we had outcome-based 
performance metrics. We transformed that agency. We made it 13 
percent smaller, 50 to 100 percent more productive, and three 
times the outcome-based results. We were rated number two in 
the Federal Government employee satisfaction, had a 95 percent 
positive client satisfaction rate from the Congress of the 
United States.
    This is not rocket science, but the process and the players 
matter.
    Mr. Cummings. I just have got about another minute and then 
I have got to end.
    Mr. Cox, several members of the panel have already said 
that when they talk to employees they know that employees want 
to do the right thing, government employees, and they want to 
be effective, they want to be efficient. I mean, do you see any 
value in this discussion? Do you follow what I am saying? And I 
believe that. I mean, I deal with Federal employees every day. 
God knows I thank God for them. But I am trying to figure out, 
there is something there, there should be a way to bridge some 
of this. But I mean, do you see any value in this? Do you 
follow me? Does that make sense?
    Mr. Cox. Congressman, I don't see a value in having a 
commission to take another look at the government. Part of it, 
I believe very much that you have got the executive branch that 
runs the various agencies. They need to take a look at what 
they're doing on a regular, reoccurring basis. You have the 
Congress of the United States, you know. My colleague over 
here, clearly, I would love to have a budget to run the Federal 
Government with. I would really like to have a budget.
    Federal employees want to do a good job. I myself served 
the Department of Veterans Affairs 23 years as a registered 
nurse, so wanting to take care of veterans and to do a great 
job for the men and women that served this country.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Mica. [Presiding] Thank you, Mr. Cummings.
    The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    Mr. Walker, first of all let me, too, express my respect 
and admiration for the work you have done through the years. I 
want to ask you this, though. I have been here 25 years now and 
when I first came our national debt was slightly less than $3 
trillion. Now we're approaching $17 trillion. I thought it was 
too much when I first got here. And yet I do read occasionally 
an economist in The New York Times or someplace else that says 
that that debt really doesn't matter as much as we sometimes 
say. And I've got a couple of questions related to that.
    I read all these articles, too, that say that we've got not 
only this what I think is horrendous debt, but we've got X 
amount of unfunded liabilities. I read different figures on 
that. What is your latest guess as to what these unfunded 
liabilities are and how soon do you think we will be at the 
point where almost the entire Federal budget will have to be 
spent on Social Security, Medicare, Medicaid, interest on the 
debt, and so forth?
    Mr. Walker. Well, let me give you a few highlight numbers. 
When President Clinton ended his term as president, debt was 
$5.6 trillion. It's over triple that under the last two 
Presidents. When President Clinton ended his term our total 
liabilities and unfunded promises for Social Security and 
Medicare were $20.4 trillion. Now they're about $72 trillion, 
going up $7 million a minute; $7 million a minute.
    When you use honest and comparable accounting and you 
compare debt to GDP in the United States to Europe, you have to 
add Federal, State and local debt, you should also add what we 
owe the trust fund bonds for Social Security and Medicare, 
there is only one country in Europe that has a higher debt to 
GDP than the United States, it's called Greece. I would 
respectfully suggest we don't want to follow their example.
    Now, don't get me wrong. The so-called economist Paul 
Krugman, who I have debated several times, the truth is we need 
to be spending more on investment and less on consumption. The 
truth is the problem is not the short-term deficits, it's the 
structural deficits. And in fact if we could end up regaining 
control of the budget, spending more on investment in the 
short-term, restructure our obligations over time, reform our 
tax system, then we can accomplish both. We can end up getting 
more economic growth, more job opportunities. And that might 
actually exacerbate the deficit in the short-term, but we could 
make huge progress on dealing with these unfunded obligations 
over time, through reforming social insurance programs and our 
healthcare system and our tax system. So that's what we need to 
do.
    So the truth is we've got a problem. The problem is not the 
short-term problem, it's the structural problem. But no matter 
what we do on that, we've got to improve the economy, 
efficiency, and effectiveness in government. And with all due 
respect, the current system isn't working.
    Mr. Duncan. All right. Let me ask one question of Mr. 
Goldsmith.
    Mr. Goldsmith, my dad was mayor of Knoxville from the time 
I was 11 until I was 17. I found out, the big thing I remember 
is I think almost everybody wanted to be a fireman or a 
policeman and the next day after they went on the force they 
wanted a promotion and/or a raise. And I became convinced that 
being a mayor was one of the toughest jobs in the world, and so 
I certainly admire what you have done.
    But former Governor Rendell, when he was mayor of 
Philadelphia and he was having a problem with city unions, he 
testified in front of the Ways and Means Committee and he said 
government does not work because it was not designed to. He 
said there is no incentive for people to work hard, so many do 
not, or some do not. He said there is no incentive to save 
money, so much of it's squandered.
    And we've heard for years how government agencies spend 60 
percent of their budget in the first 11 months and they 
scramble around that last 12th month spending the last of it so 
they won't be cut. How do we put more incentives or pressures 
into government so get these costs down? Can we work a system 
where we give employees bonuses if their agencies don't spend 
all their money? What do you say to that?
    Mr. Goldsmith. Thanks for your question. Governor Rendell 
and I were mayors at the same time facing kind of similar 
issues.
    I think your question is very insightful. I mean, people 
react to the incentives that they're given, right? And 
irrespective of the scale of the deficit that David just 
responded to your question, right, every dollar is somebody 
else's dollar. The culture has to change.
    And we have these structures in government, you know, the 
lose it if you don't use it on the funding for an agency, 
right? You have 100 employees lined up next to each other and 
you have 25 that excel, right? Can we reward those 25 in some 
way?
    I come from a background, just like Ed Rendell, right, 
where we value our public employees, and I would suggest to you 
that the current system is unfair to our current employees, 
right? It doesn't reward their performance, it doesn't give 
them the benefits of solving a problem in a substantial way. 
And what's more, because of the attrition we have in the public 
workforce, we do have opportunities now to be more productive 
without the layoffs.
    So I would suggest that looking at every one of these 
structures, how we procure, how we pay, how we hire, how we 
promote, how we give discretion, all of those things will 
change the culture of how we protect the public's tax dollar.
    Mr. Mica. The gentleman's $35 million of debt time has 
expired.
    I will yield the next $35 million to the gentleman from 
Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you.
    So, Mr. Walker, you don't think the current system is 
working, obviously, so the democratic republic notion isn't 
working, whatever. Would you think a parliamentary system or 
something along parliamentary system where one party had to 
take where responsibility for their actions or inaction and be 
held accountable at the ballot box would be more successful?
    Mr. Walker. Well, that would be a major constitutional 
change. The fact is, is that under parliamentary systems there 
is not a separation between who is in charge of the legislative 
branch and who is in charge of the government. You don't have 
the kind of checks and balances that our Constitution 
envisions. I think we can get there without going to a 
parliamentary system, but I do think that we need political 
reforms as well as policy reforms.
    Mr. Tierney. What do you say to somebody who would say, 
well, the change here is just an abdication of Congress' 
responsibility. You say that the GAO or other groups like that 
can certainly identify the problems. Mr. Goldsmith, Mr. Chenok, 
everybody, and the problem is that Congress isn't acting as a 
policy body on those recommendations. So your suggestion is put 
Congress aside. We'll put in this group of seven people who 
aren't elected and they'll sort of cram it down their throats 
and see how that goes.
    Mr. Walker. Yeah, let's be very careful here. The power 
resides with the Congress of the United States and the 
President of the United States.
    Mr. Tierney. Well, what you are recommending is that you 
give them something to bring to Congress that can't be changed 
at all, so there will be no amendments and up or down, so it 
doesn't reside with Congress.
    Mr. Walker. Well, first recognize that we are talking about 
a concept, not a piece of legislation, and that ultimately the 
Congress would have to end up introducing legislation that 
would have to pass and get the signature of the President. So 
what we recommended was that the body would make 
recommendations, it would be guaranteed hearings and it would 
be guaranteed an up-or-down vote. Now, there is a risk to that. 
There is a risk it that.
    Mr. Tierney. Well, let me ask you a question. So if you 
recommend something----
    Mr. Walker. Yes, sir.
    Mr. Tierney. --could the committee hearing process then 
change that recommendation before it's brought to Congress?
    Mr. Walker. Sure. I mean, the Congress is the one that 
passes the laws of the land.
    Mr. Tierney. Well, I want to get that clear. Because what I 
was first hearing was, no, they can't. It comes in, it goes to 
Congress, they vote up or down. You now say that it would go to 
a congressional hearing committee, they would have hearings, 
they would have amendments, they would change it however they 
wanted to change it----
    Mr. Walker. Let me clarify.
    Mr. Tierney. --and they would bring it to the body, then 
that thing have to be voted up or down.
    Mr. Walker. Let me clarify. Legislation has not been 
introduced yet.
    Mr. Tierney. I understand that.
    Mr. Walker. We have a concept. We have a concept. We 
recommend that you don't have amendments because if you end up 
having amendments, you can end up gutting the whole thing, as 
we've seen. On the other hand, if Congress in its wisdom 
decides that it's better to have amendments, with some type of 
limitation so you don't undercut the whole entire work of the 
commission, then obviously that would prevail.
    Mr. Tierney. Suppose I was somebody very invested in farm 
interests out there and the commission decided they were going 
to recommend doing away with the farm subsidy program and the 
crop insurance program, and they made that recommendation, and 
then you say, well, we don't want Congress to make changes on 
that. I'm going to feel a little bit unrepresented out there. I 
don't think that's going to go over very big with the public.
    Mr. Walker. Well, I think there are several ways you could 
deal with it. First, I do envision you would end up issuing 
periodic reports on subject by subject. Secondly, as I said, 
it's ultimately up to the Congress and the President as to, if 
this commission is going to be created, whether or not you 
should have the authority to amend or not. You are going to 
have to make----
    Mr. Tierney. And if have we the authority to amend----
    Mr. Walker. Well, but here's the other issue, but here's 
the other issue. You could have an up-or-down vote, and if not 
enough people vote for it then, fine, it goes down. On the 
other hand, if you like a vast majority of what was 
recommended, you could have another piece of legislation that 
then would end up getting the necessary votes. The whole point 
is you want to have a process that has transparency, that has 
integrity, trying to get an answer.
    Mr. Tierney. But we are all trying to get to the same 
place. I'm just trying to point out. You know, the fast track 
in trade is a total abdication, in my eyes and many others, of 
Congress' responsibility. It looks like we are going to the 
same place here on that.
    Mr. Walker. Sure.
    Mr. Tierney. Dr. Kamarck, you seem to be very happy with 
the work that the reinventing government group did.
    Ms. Kamarck. Yes. Yes, I am.
    Mr. Tierney. Why wouldn't we just do that again?
    Ms. Kamarck. I think that that's another way to approach 
this. I think that the important thing here is that it is time, 
it's 20 years, it is time for an across-the-board, substantive 
look at the government, at obsolescence, at what needs to be 
improved.
    Going back to Mr. Cox's comments, you know, it's entirely 
possible that when you start analyzing this you are going to 
find that a lot of what we've contracted out over the last 20 
years should be brought back into the government with perhaps 
some changes in the civil service laws.
    Mr. Tierney. Look, I liked your riff on the idea that if 
you're going to be a good progressive you have to go back for 
effectiveness and for efficiencies, and the chairman, the 
ranking member, says it all the time. But that was a good way 
to go about it. It was a successful operation on that.
    But also I want to mention Mr. Cox brought up a good point. 
You know, we're all very upset with government. Some of us 
aren't that enamored with business. So if we're going to have 
business or the Chamber of Commerce or anybody else in here as 
part of this group of seven or whatever, let's remember every 
day you pick up the paper they're the ones that almost tanked 
Wall Street, and not only our financial system but the national 
system. Look at the SEC actions being brought against people, 
the lawsuits. I'm not sure I want to put large corporate 
America or international corporations in charge of any 
operation on that.
    So I have just those issues I think were brought on, the 
questions or whatever. But, Dr. Kamarck, I think probably a 
better view of this is let's do that reinventing government and 
keep it as a ongoing process so we continually review 
efficiencies and let's just do our job here. When people make 
the recommendation, let's see if we can't as a Congress find 
some way, instead of scoring political points, to come to some 
solutions.
    Yield back.
    Mr. Mica. Thank the gentleman.
    Gentleman from Michigan, Mr. Bentivolio.
    Mr. Bentivolio. Thank you very much, Mr. Chairman.
    While I am very much in interested seeing the Federal 
Government become more efficient, I couldn't help but worry 
that we're missing the elephant in the room here.
    Mr. Chenok, did I pronounce that correctly?
    Mr. Chenok. Yes, sir.
    Mr. Bentivolio. You state that by implementing some changes 
we could save nearly a trillion dollars over 10 years. That's a 
startling number that shows that government becomes more 
inefficient with our money as it becomes more and more involved 
in our daily lives. Do you think that the fact that we can save 
a trillion dollars, a number larger than the GDP of nearly 200 
countries, by becoming more efficient in how we operate here in 
Washington suggests that the government may be involved in too 
much?
    Mr. Chenok. The report that we issued where that number 
came from talked about looking across the entire Federal budget 
over a 10-year period and looking at efficiencies that the 
private sector had gained in taking a look at things like 
supply change management, moving to shared services, 
consolidating information technology, looking at the savings 
that companies and other levels of government, State and local 
governments, for example, had made over time, and then making 
some assumptions, it's admittedly an estimate, about over 10 
years if the government adopted this, what would the potential 
be for that.
    So it was more about giving the government doing the 
services and activities it's involved in, if you actually took 
the extent of activities across the private sector in these 
seven areas and then took the savings that you saw in the 
private sector from that and applied it to the Federal budget, 
the potential for savings would be as much as a trillion 
dollars over 10 years.
    Mr. Bentivolio. You say that one of the long-term 
challenges is that Americans are used to taking its business 
elsewhere when providers don't respond well to that demand. 
Obviously most people don't move out of a country when they are 
dissatisfied with an inefficient Federal Government, but one of 
the great aspects of our Federal system is that we have States 
that compete against each other. When we approach the issue of 
making the Federal Government more efficient, do you think that 
it would be smart to start off by asking ourselves whether or 
not the Federal Government should even be involved with such a 
government service in the first place? Do you think that 
allowing the States to provide more government services would 
empower Americans with more choice, thus making government as a 
whole, nationally and locally, more efficient?
    Mr. Chenok. The intergovernmental partnership is a key 
element of our how our government functions and has been for 
200 years. In any program--and many Federal Government programs 
are administered by dedicated employees at the State and local 
level who serve citizens and are closest to those citizens--in 
designing any Federal program and in looking at the ongoing 
operations of that program, especially one that is implemented 
through an intergovernmental partnership, I think your question 
is well taken. It's very important to look at the proper role 
of the Federal agency and the State and local agencies and 
ensure that they continue have to the proper balance.
    Mr. Bentivolio. Thank you.
    Do you want to say something, Mr. Cox?
    Mr. Walker. I just want to give you some facts. A hundred 
years ago the Federal Government was 2 percent of GDP. Now it's 
23 percent. It's 11-1/2 times bigger. A hundred years ago the 
Congress controlled 97 percent of Federal spending. Now it 
controls 35, and declining. These are fundamental facts that 
tell us what part of our problem is.
    Mr. Bentivolio. Thank you very much.
    Mr. Chairman, I yield back my time.
    Mr. Mica. Thank you.
    The gentleman from Tennessee, Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. I would like to thank 
each of the distinguished witnesses.
    I just wish we could lock you in one room and get a 
consensus proposal and then force Congress to act on that. But 
then that would require that we'd lock everybody on this 
committee in a room to get a consensus here, and that's been 
one of the difficulties over recent decades, is getting 
consensus.
    I think most people back home realize we live in the best 
country in the world, but there is still so much lost 
potential, it's tragic. So how do we gain that potential? Many 
of you have good ideas. I would love to see a decision-forcing 
mechanism here so that Congress could no longer delay and 
obfuscate. Our simple inability to deal with sequestration is 
proof positive that we prefer mindless, arbitrary, across-the-
board cuts to sensible prioritization.
    But I would like to ask several of the witnesses, first for 
Dr. Walker and Elaine Kamarck, do you think it requires 
presidential leadership, practically speaking? You know, 
Congress, we're an equal branch. In fact, we're Article I in 
the Constitution, so we should be able to assert ourselves more 
capably than we have been in the past. But functionally 
speaking, without presidential leadership, or vice-presidential 
leadership, as we had the case with reinventing government, 
does it really take that to focus enough public attention so 
you can fill a hearing room with enough people who actually 
think this might happen, that they take it seriously?
    Mr. Walker. Mr. Cooper, if you want to make 
transformational change, whether you're in the private sector, 
the public sector, or the not-for-profit sector, you have got 
to have the attention and leadership from the chief executive 
officer, whoever that is. You also need to have support from 
the bipartisan leadership in the Congress, which obviously has 
an important role to play. And so that's a condition precedent.
    Ms. Kamarck. Of course, you need presidential leadership, 
but I also think that when you get into this, it's just so much 
more complex. And therefore the authorizing committees could 
play a very, very important problem-solving role, perhaps in 
conjunction with a commission like this, in really delving into 
some of the most expensive and some of the apparently most 
wasteful pieces of the government.
    And so I would say that Congress shouldn't shortchange 
itself. I mean, if you go back to a sort of prior era of 
primacy of the authorizing committees, I think a lot of good 
recommendations and a lot of work could be done.
    Mr. Cooper. One of the tragedies that this witness panel 
has pointed out is the number of good recommendations that have 
been made in the past that Congress has either completely 
ignored or refused to implement.
    I would like to ask Mr. Goldsmith, Mr. Chenok, and Mr. Cox 
about this deep question of civil service reform, because 
everyone wants a fulfilling career and they want adequate 
compensation and everyone is terribly frustrated with this 
mindless privatization where sometimes private sector folks are 
paid three and four times the amount of money to do the same 
work that was being done by a humble government employee.
    So how do we get this right? Is our system so ossified now 
that we are unable to reform our own systems? Is this American 
arteriosclerosis that's happening? How do we get even a 
consensus among panelists like you about the right way to do 
things, because young people who graduate from business school 
are probably more likely to apply for a job at IBM than they 
are at USGovernmentjobs.com. We've got to have civil servants 
respected and capable and honored when they do a good job, and 
pay for performance has got to be a key part of that, I would 
think. So is there any consensus that you three gentleman could 
strike?
    Mr. Goldsmith. Well, we might have consensus on this 
subject. I mean, in the end a government employee is ultimately 
responsible for the activity, right? Go back to my work in New 
York City, right? IT procurement was so complex and the skills 
were so difficult that it was virtually impossible for the pay 
available to find the right person to manage that project.
    So I think I would hope we could all agree that--I would 
suggest that the civil service system is broken on both ends, 
right? At the top end it doesn't recruit in the right level of 
folks, it doesn't recruit them in at the right pay level, it 
doesn't train them and give them the right amount of 
experience, and those people are absolutely necessary for an 
effective government.
    At the bottom end I think we too narrowly manage our public 
employees. We don't give them enough discretion to solve 
problems. And with our current data systems we can figure out 
who is doing a good job and what remedial action they might 
need or what performance pay they might need. And, you know, if 
we hire folks based on tests and we promote them without 
concern to leadership and we don't evaluate and get ourselves 
taking care of those who are underperform, we're going to get 
the government that people complain about it.
    So I think all through that system we need changes to 
enhance the skill level of the public sector employee.
    Mr. Chenok. Mr. Cooper, I joined the Federal Government out 
of graduate school and I am incredibly proud to have spent 
almost 15 years as a Federal employee. And I know that today 
there are many hundreds of thousands of Federal employees that 
feel the same way. And an important element I think of any 
reform or any recognition is that Federal employees often have 
the best and most creative ideas for how to make change in 
their agencies and in the programs that they work on, and 
creating structures to recognize that, to celebrate their 
achievement and their success, and to make that an enduring 
part of the civil service system I think is an important 
element of creating incentives that will keep Federal employees 
energized in the future.
    Mr. Mica. Thank the gentleman.
    Gentleman from North Carolina, Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    And thank each of you for your testimony today. And as we 
look at this issue, does it not get down to one of motivation? 
How do we put employees and systems in terms of systemically 
within that to motivate the employees to do a better job, to be 
more efficient.
    I am a new Member here, and so I find it very frustrating 
when you have agency after agency after agency that says, well, 
that's not my responsibility, that's over in this other area, 
and they're not doing their job. So it's always pointing the 
figure across at a different agency and getting it. And yet we 
have the GAO who has identified some $200 billion in 
duplicative services that have not been implemented; that we 
could save $200 billion right now, that we're doing the same 
thing in another agency.
    So how do we go about making sure that employees have the 
proper incentive to do that?
    Mr. Walker.
    Mr. Walker. Well, let me give you a case study. The case 
study is when I came to GAO. The first thing you have to do is 
the chief executive officer, whoever it is, the President of 
the United States, head of an agency, you have to have a plan, 
a strategic plan that's forward looking, threats, risks, 
opportunities, maximize value, mitigate risk. You have to have 
a budget where you allocate limited resources to try to achieve 
the results. You need to have performance metrics that are 
focused on outcomes. You then reorganize your agency. You then 
evaluate people based on those outcomes. People will do what 
you measure. Incentives, transparency, and accountability. They 
work.
    Mr. Meadows. I agree. So what are the barriers to us doing 
that across all agencies. What are the barriers that we have?
    Mr. Walker. Well, one of the barriers that we have is we 
don't have such a plan for the United States Government, okay? 
Number two, we don't have a budget. Number three, we don't have 
outcome-based performance metrics adequately. For example, the 
authorizers, when they're authorizing things, you ought to know 
what are you looking for, how are you going to measure success?
    The other problem we have is that our classification 
systems and compensation systems are based on the 1950s. They 
are based upon the 1950s, and they have to be modernized to 
reflect the 21st century realities. And these are good things 
for Federal workers, not bad things for Federal workers.
    Mr. Meadows. Right. Right.
    Dr. Kamarck?
    Ms. Kamarck. Part of the problem that the government faces 
is that it does not--government employees often in agencies 
don't have clear goals. And the reason is their goals are 
created in statutes and the statutes over time get 
contradictory goals.
    So let's take foreign aid as an example, right? One of the 
goals of foreign aid is to make countries independent and able 
to sustain their own populations and grow food. What's another 
goal of foreign aid? Another goal of foreign aid is to create 
markets in those countries for American products. Now, those 
two things are contradictory. No wonder the civil servants have 
a heck of a time figuring out what they should do.
    Mr. Meadows. So what you're saying it is, is more of an 
overall-arching policy issue?
    Ms. Kamarck. Well, if you look at some places in the 
government where the mission is very clear, okay, they actually 
do a very good and a very efficient job. The people at the 
Social Security Administration who get those checks out, 
billions and billions of dollars every month, on time, with 
relatively little fraud, they know what their goal is, they 
have got support for their goal, they do a pretty good job 
actually of doing that.
    Mr. Meadows. Right. Right.
    Ms. Kamarck. Where we get into trouble in the government is 
where the goals are very difficult to define, they are often 
contradictory, there is often competing political pressures, 
and there it is a policy decision. There you have to go back to 
policy and you have to say, okay, what is it we really want 
this agency to do. You can't expect civil servants, who after 
all are bound by law, okay, they're creatures of law, you can't 
expect them to behave in an efficient way if they are in fact 
required to do many contradictory things at once.
    Mr. Meadows. Okay. Mr. Cox, in your opening statement you 
kind of indicated that we don't have a problem right now. Is 
that what you're saying, is that we don't have a problem here?
    Mr. Cox. I would disagree with that.
    Mr. Meadows. So we do have a problem.
    Mr. Cox. Yes, sir. 
    Mr. Meadows. And how do we fix it?
    Mr. Cox. I think how do we fix it, I think part of it, the 
Congress of the United States needs to adopt a budget. They 
need to move forward with that, sir. Also, when we talk about 
employees----
    Mr. Meadows. My time is running out. Do you see any 
excesses in what we do in terms of giving bonuses to people 
that are not based on performance? Do you see that with the 
Federal employees?
    Mr. Cox. Yes, sir. I think that happens in any type system, 
but I also see gross overspending with government service 
contracts. DOD overspent by $2.2 billion over and above their--
--
    Mr. Meadows. So if we were to cut that program and make 
modifications on the Federal workers' standpoint, that's 
something that you could endorse or would endorse?
    Mr. Cox. That's a very, very specific question for a very 
specific answer, sir. But, sure, Federal employees should 
receive bonuses just like other employees. And pay for 
performance, I have heard that bantered around here. What we 
see with pay for performance is usually taking away from the 
lower end and giving to the top end. It's a reshuffling of the 
money. It's not additional money allocated to reward employees.
    Mr. Meadows. Well, my time has expired. I appreciate the 
chair's indulgence.
    Mr. Mica. Thank the gentleman.
    Now the distinguished ranking member of the Government 
Operations Subcommittee, the gentleman from northern Virginia, 
Mr. Connolly.
    Mr. Connolly. I thank the distinguished chairman of that 
subcommittee.
    Mr. Cox, Chairman Issa seemed to take some umbrage at your 
testimony and seemed to characterize it in certain ways, and 
maybe I didn't hear you correctly, but I thought the thrust of 
your testimony was whether the Government Transformation 
Initiative is a good idea or not, it represents a usurpation, 
that was the word I think you used, usurpation of Congressional 
prerogatives, that we have a responsibility, and that handing 
over that responsibility to an unelected group of seven wise 
men or seven wise women or whatever number has serious 
implications in terms of the constitutional responsibility 
Congress actually has. Did I get you wrong in your testimony?
    Mr. Cox. No, sir, you did not get me wrong. That is exactly 
correct. I mean, the American people elect the Congress of the 
United States and elect them with a responsibility to perform 
and they hold them accountable.
    Mr. Connolly. Mr. Walker, doesn't Mr. Cox have a point? I 
mean, with the best of intentions, is it implicit in this is 
sort of an admission that we apparently can't do it ourselves?
    Mr. Walker. You aren't doing it. The fact of the matter is 
you aren't doing it. The fact of the matter is----
    Mr. Connolly. Mr. Walker----
    Mr. Walker. --the system is not working.
    Mr. Connolly. Mr. Walker----
    Mr. Walker. Yes, sir.
    Mr. Connolly. --so, in other words, it is implicitly an 
acknowledgement that we are not doing it and can't do it.
    Mr. Walker. Absolutely.
    Mr. Connolly. And, for example, you were passionate a 
little earlier, Mr. Walker, in your testimony about the High 
Risk Report, which is one of my favorite reports, because I 
think it's full of substantive meat. You pointed out in your 
testimony that in 1990, the first report, there were 14 high 
risk categories identified and this year there were 30. And 
what kind of report card, Mr. Walker, does Congress get in 
acting on any of those 30?
    Mr. Walker. There have been some items that have been 
reduced over the years, and importantly a number of the items 
that are on the list actually require legislation in order to 
be able to address the problem. And so obviously it's not a 
good grade, because merely because you go from 14 to 30 is not 
a positive trend. But there have been some items that have come 
off.
    And let me mention one thing, Mr. Connolly. You know, one 
of the things that GAO could do if Congress instructed it to do 
it, I'm not sure that it would want to do it, is actually go 
further than it does right now. Right now it doesn't make 
recommendations to say, consolidate this, cut this, eliminate 
this, add to this. It doesn't do that because it believes that 
Congress doesn't want it to do that.
    You need those kinds of recommendations. If you are not 
going to get them from GAO, if you are not going to get them 
from the Inspectors General or somebody else, then that's what 
this commission is intended to do.
    Mr. Connolly. I agree. Thank you.
    Ms. Kamarck, you talked about the partnership in 
Reinventing Government--and I remember reading all the books 
even at that time--between the Clinton administration and a 
Republican Congress after 1994. But one of the things the 
Republican Congress did in 1996 was actually mandate a 25 
percent reduction in acquisition personnel. I was listening to 
Mayor Goldsmith talk about the difficulties--boy, did that 
resonate with me--about the skill set we need to manage large 
complex systems integration IT contracts. We cut 25 percent. We 
went from 460,000 acquisition personnel in DOD to 230,000. I 
assume you wouldn't call that a positive attribute, nor would 
you count that in your column of good things under Reinventing 
Government?
    Ms. Kamarck. No, because I think that that was the same 
kind of sort of across-the-board cut that I talked about as 
being not well thought out. We did oppose the excessive 
paperwork and burdens that came on for very small, trivial, you 
know, acquisitions which we thought that Federal managers and 
Federal workers ought to have the ability to buy themselves. 
That did not go, however, to the large weapon systems, et 
cetera----
    Mr. Connolly. Well, we've been trying to climb back out of 
that mess every since. Here is an example of what Mr. Cox was 
talking about. We actually need more capability, not less, 
within the government in managing acquisition, especially IT 
acquisition.
    Ms. Kamarck. And can I just say----
    Mr. Connolly. Well, my time is going to run out.
    Mr. Chenok, a final question. You served in the public 
sector and the private sector. What would happen in IBM if your 
corporate board of directors spent its time disparaging the 
workforce, announcing we're going to freeze your salary until 
you come down to some level that we have decided is the market 
level, we're going to cut your benefits, and we think you're 
overpaid, bloated, incompetent, lazy, and there are too many of 
you? What would happen in the private sector if senior 
management took that approach to its workforce?
    Mr. Chenok. Well, any organization, government or private 
sector, basically wants to look at its workforce as valuable 
contributors to the mission of the organization, whether it's a 
company, a small company, a large company, or a government 
organization. And the key, what the key is to ensure that the 
employees of that organization feel that their ideas are 
welcome and empowered and that there is a reward structure so 
that when they are successful they see career growth and career 
paths.
    Mr. Connolly. But, I know my time is up, but, Mr. Chairman, 
if you would indulge me, but it would be fair to say that any 
member of a corporate board of directors would be removed who 
actually did that because it affects productivity and morale 
and most sensible private sector companies actually care about 
those two things.
    Mr. Chenok. I am not an expert on rules of behavior for 
corporate boards of directors, but it would make sense for 
corporate boards to ensure that the success of the organization 
is paramount.
    Mr. Connolly. And I would simply note for those who say we 
ought to run the government like a company, we might want to 
learn from that because we are certainly not practicing what we 
say we preach.
    My time is up. I thank you.
    Mr. Woodall. [Presiding] I thank the gentleman.
    I will claim my time while I am sitting here in the chair. 
And I'd say to the gentleman from Virginia, I walked in, in the 
middle of you comments. When you talked about bloated, 
unproductive, overpaid, were you talking about what Members of 
Congress say about the Federal workforce or what the American 
voter's saying about Members of Congress?
    Mr. Connolly. I was referring to the former, Mr. Chairman.
    Mr. Woodall. Fair enough.
    I will tell you, Mr. Walker, I am just a big fan of the 
work that you do. Always have been. I quote your materials 
regularly at town hall meetings. We're doing our best to preach 
the good news back home. It takes someone who's out there with 
credibility to crunch the numbers and share those.
    I go home and I talk about the budget, I am a politician 
from Washington who may have an ax to grind. I go home and I 
talk about what our former Comptroller General says about the 
budget, because of the very fair-minded, aggressive approach 
that you took to listening to all sides while you were there, 
has a lot of credibility.
    Let me say to you, or ask you, Doctor--is it Kamarck?
    Ms. Kamarck. Kamarck.
    Mr. Woodall. I was listening to your comments earlier where 
you talked about the ineffective way that cutting across the 
board touches all programs, that we really ought to have a 
conversation about what's effective and what's not effective 
and cut those things that are not effective and invest in those 
things that are.
    Ms. Kamarck. That's right.
    Mr. Woodall. I thought that made perfectly good sense. I 
always read the Brookings materials to challenge myself to make 
sure I am on the right track. I actually have a bill that's 
going to be heard in the Budget Committee this year and it's 
called the Baseline Budgeting Act, and it kind of takes the 
opposite spin to what you said. While I agree with you, it 
makes no sense at all to cut all programs across the board 
because some are effective and some aren't, it also makes no 
sense to me each year in baseline budgeting to raise the 
spending on all programs across the board because some are 
effective and some are not. And so my bill says let's just 
assume we're going to spend the same thing every year and then 
let's come back and justify those programs that need increases 
and those programs that need decreases.
    While there seems to be bipartisan agreement that cutting 
across the board is not a smart plan, I'm having a tougher time 
finding bipartisan agreement that raising across the board is 
also not a smart plan. Could you speak to that just for a 
moment?
    Ms. Kamarck. Well, it's not surprising because, of course, 
you're going against the way Congress has always done business. 
So I would say that if in fact there was some mechanism, 
whether it's David's proposal here or some mechanism that was 
making distinctions in government between the government that's 
more important and the government that's less important, and 
then you could perhaps be able to use this metric.
    One of the things that I would propose you think about is 
government that's become obsolete. There are entire places in 
this government where you really have to say, why are we doing 
this still? And if you save some money there, you might be able 
to put that money in someplace else where you maybe need it 
more.
    That process of asking why are we still doing this is a 
process that's difficult. I think it's difficult for 
politicians to take the first crack at it, but I don't think 
it's difficult for commissions to take the first crack at it. 
And I think what happens is when you have these commissions, 
and there have been many of them over the years, that they 
unearth some ideas that in fact have political umph to them and 
in fact can get enacted.
    Mr. Woodall. I was one of the two Georgians who voted in 
favor of the Budget Control Act. I believed in that commission. 
I remember I was speaking with the minority whip shortly 
thereafter and said, why do you think this didn't work? And the 
minority whip said, well, because we tried to do the 
responsible thing and we moved the hammer long past the actual 
decision making. And had the sequester gone into effect the day 
after the committee failed, the committee never would have 
agreed to fail. But because we put that big long space in 
there, the consequences were separated.
    When we talk about commissions, and certainly we have had a 
lot of them, there have been some successes, term limits comes 
up a lot in my district. And I say, folks, I will support term 
limits legislation because I know you support term limits 
legislation, but I feel like I'm selling you short when I do 
because our Founding Fathers gave us term limits legislation 
and it was every 2 years. Twelve years of a bad Congressman is 
12 years too long. We ought to be able to get rid of folks 
every 2 years in elections.
    I feel kind of the same way about commissions. We created a 
United States Congress to do exactly these things, and at some 
point aren't we selling our Republic short when instead of 
fixing Congress that is supposed to be able to do these things 
together, we instead farm this out to somebody else to give us 
a yes or no, an up-or-down vote?
    Mr. Walker?
    Mr. Walker. Well, I think it's important to note that this 
is a supplement to, not a substitute for, for whatever Congress 
is going to do on an ongoing basis. The idea is that this is a 
force enhancer. This is multiplier. This will enable you to be 
able to look at a lot more things a lot quicker, and that 
ultimately what will end up happening is the ultimate decision 
will be vested in the Congress and will be vested in the 
President of the United States, as it should be.
    Rightly or wrongly, you don't spend enough time on these 
issues, and I don't know that that's likely to change anytime 
soon. It hasn't changed for several decades, and I don't see 
any real transformation up here.
    Mr. Woodall. Well, I was going to ask you that follow-up 
question, about whether you had confidence that we could do 
this in the absence of a commission as opposed to a commission 
being a force multiplier, but you have just answered that 
question, that in decades we have not and you don't see that 
changing in the coming years.
    Mr. Walker. I will tell you that in my testimony I have a 
history of different commissions since 1905 dealing with this 
issue. Most were not effective. The ones that were, were 
statutory. And those did not undercut the Congress' 
constitutional responsibility and authority.
    The Hoover commissions were really the kind of model that 
we're talking about. They were embraced by both Democratic and 
Republican Presidents, by both Democratic and Republican 
Congresses. Let's learn from history. Let's learn from others.
    Mr. Woodall. I thank you all for being here. I am grateful 
for your service in each of the roles that you play. This is a 
team sport, and irrespective of the results that we get, we're 
going to get better results with better players on the team, 
and I appreciate what you do.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Gentleman, Dr. Kamarck, as I listen here I am trying to 
figure out what the best way forward is, because I feel that 
there are some inherently government functions that even the 
best business models cannot address. And having worked in the 
Department of Veterans Affairs, I think that's a great example 
of the complexity of this issue. On the one hand, you have this 
beast of an agency with tremendous waste and with huge 
backlogs, with veterans trying to get into the system. But on 
the other hand it has the best healthcare system in the Nation, 
if not the world. VA hospitals are consistently rated among the 
best, especially in the last 15 years with the turnarounds that 
Dr. Kizer put into place. I saw the work that my former 
colleague Roger Baker did as the CIO of VA. Now, there is a 
gentleman, because he had budget authority, was able to 
implement a lot of business processes that saved government 
tremendous amounts of money.
    Also at VA, Mr. Cox, I saw employees who worked hard in the 
trenches unsung every single day whose heart bled for their 
veterans, who really placed the mission of caring for veterans 
above everything else. And so I am trying to figure out a way 
to sort of deal with this animal that we are working now. And 
let's go with this commission to start off with.
    Mr. Walker, can you tell me who would sit on the commission 
that you suggest? Would it be people from within government, 
consultants from the private sector, or both, or would there be 
government employees? Because some of these issues are 
incredibly complex.
    Mr. Walker. Well, what the proposal is, that you would pick 
seven individuals from the public, private, or not-for-profit 
sector who are capable, credible, and nonconflicted, who have 
proven transformational change experience. In my view, at least 
one should be somebody who has credibility within the organized 
labor community to be able to be sensitive to those issues. But 
you don't want people who are heads of major government 
contractors. I don't think you want people who are sitting in 
government right now as head of a Federal Government agency 
right now, because of the potential conflicts of interest that 
exist there.
    Ms. Duckworth. Would you put in, for example, maybe not the 
highest level of Federal employee, but someone who is in the 
GS-13, 14, 15, you know, a more senior manager who is still in 
the trenches somewhat, as opposed to someone who is, say, at 
the Under Secretary or Assistant Secretary level?
    Mr. Walker. In my view there would be clearly room for 
input from those kinds of people. In fact, one of the things 
that we envision is that you want to draw upon the good work 
that's been done. You want to have mechanisms for government 
employees to be able to make recommendations of things that 
should be considered, et cetera.
    But I think if you have got somebody who is a GS-13 it is 
hard for me to envision that they have a proven track record of 
achieving transformational change, and to me that's what's 
important. What's important is that you have people that have 
actually done some of the things that we're talking about 
doing. In government, could be different level of government, 
could be the Federal Government, in the private sector, in the 
not-for-profit sector. So therefore they have the knowledge, 
they have the experience, they have the credibility.
    And, by the way, the way that we proposed it, but again 
it's a proposal, is the Congress appoint four and the President 
would appoint three and that it would be bipartisan, although 
the President's appointments would be one Democrat, one 
Republican, and one independent, because they're 42 percent of 
American voters.
    Ms. Duckworth. So if this commission is coming together and 
it's looking at new practices, new processes, maybe it's 
incentive-driven procedures, going back to what I said about 
inherently government functions, I worry about the 
underrepresented populations, those with disabilities, low 
income, some of our veterans.
    If you just go with just pure business practices, it 
doesn't make sense, for example, to build wheelchair ramps and 
to accommodate for persons with disabilities. And I have real 
fear that we are going to get to a place, if we just reply 
purely on the dollars part of it, that we're going to start 
cutting a lot of these programs that only government can do 
because it's not in business' best interest to provide those 
services.
    I think about when I go to restaurants here in D.C., many 
of them are not wheelchair accessible, and it would be simple, 
but they don't do it because it would cost money and the number 
of wheelchair users are much lower. And so I just want to make 
sure that we don't cut those functions out of government. Can 
you talk to that a little bit?
    Mr. Walker. This is not a policymaking mechanisms to decide 
what good public policy is. This has to do with the 
organization and operations of government. So if Congress has 
made the decision that certain things ought to happen, the 
question is how do you go about executing on that in a way 
that's a modern, efficient organization that maximizes economy, 
efficiency, and effectiveness? So it's management practices, 
it's not policy.
    Ms. Duckworth. Okay. Thank you.
    I'm out of time, Mr. Chairman.
    Thank you, Mr. Walker.
    Mr. Mica. [Presiding] Thank you.
    Mr. Cartwright is next.
    Mr. Cartwright. Thank you, Mr. Chairman.
    First, I want to say that, Mr. Cox, I appreciate your 
presence here today. I have been an employer pretty much my 
whole adult life. I am a freshman here in Congress now. I 
understand the importance of encouraging the employees that you 
have who are productive and efficient. It's really part of the 
job of a manager, of an employer, to encourage productivity and 
efficiency through boosting morale.
    I don't think anybody on this panel would disagree with me 
when I say we're doing the opposite of that with our government 
employees right now. I don't think anybody would disagree that 
we have some terrific government employees working for our 
Nation right now. Raise your hand if you disagree.
    Mr. Cartwright. And that instead of rewarding and boosting 
the morale of these people, what we're doing, we've sent them 
more than 3 years without a raise. For many, many of these 
employees we have sequestered them and furloughed them, sent 
them home without pay. Raise your hand if you disagree with me 
when I say that's a really dumb way to treat great employees. 
Seeing no hands.
    And not only that, what we're doing here is, we're inviting 
their leadership here, Mr. Cox, accusing him of engaging in 
fiction writing, suggesting that his organization exists to 
collect union dues. I heard that here today. And I suggest 
strongly that that's the wrong approach, too. Mr. Cox is doing 
a fine job of representing the people who are very faithfully 
working for our Nation in all different walks--the VA system, 
for our Federal depots around the country. And I was sorry to 
hear those comments here today.
    But one thing I want to suggest is that there may be a 
constitutional concern, Mr. Walker, with the GTI-proposed 
commission. Because one thing I saw was that, according to the 
Congressional Research Service--and maybe you've seen this, Mr. 
Walker--CRS says that GTIs proposal raises a potential 
congressional constitutional concern. The Supreme Court held in 
Buckley v. Valeo that an appointee who exercises, ``significant 
authority,'' is considered an officer of the United States and 
must be appointed by the President. And giving the commission 
the authority to direct agencies to take action raises a 
potential appointments clause concern in the Constitution, 
because its authority could potentially rise to the level of 
significant authority, and the members are not all appointed by 
the President.
    Mr. Walker, I wanted to get your thoughts on that.
    Mr. Walker. Well, first, as you may know, CRS is not a very 
transparent organization. And so, no, I have not seen that. And 
in fact I think that's a problem. CRS' reports are not released 
unless the Member who requests the reports gives permission for 
them to release. So I would very much like to see that.
    Secondly----
    Mr. Cartwright. You're aware of Buckley versus Valeo?
    Mr. Walker. Yeah, right, but I haven't studied it. Yes, 
sir, I am.
    The fact is, is obviously we wouldn't want anything to be 
done that would be potentially unconstitutional. Obviously, 
they didn't reach a judgment, they said there are issues here 
that have to be explored. Another way you could do it very 
easily is to have them all be presidential appointments but to 
require that the President has to consult with certain players 
or potentially require Senate confirmation.
    Mr. Cartwright. All right. So you're willing to take that 
into account?
    Mr. Walker. Absolutely, there's a number of ways to get the 
job done. Absolutely.
    Mr. Cartwright. Thank you, Mr. Walker.
    Mr. Cox, would you have any concerns with giving an 
unelected commission the authority to direct agencies to take 
action?
    Mr. Cox. Yes, sir, I would. Number one, as has already been 
referred to, agencies have many missions that's outlined in the 
Constitution and by law, and the employees of those agencies 
are required to carry out that mission and to do that work. And 
then if you have an unelected commission that would, say, do 
something totally different, I believe the employees are caught 
in the middle there, that it would be a very uncomfortable 
situation again. And I think Federal employees are very, very 
dedicated employees that do a great job every day. And I do 
appreciate your comments.
    Mr. Cartwright. Let me ask you one more question, though, 
before my time runs out. Are you concerned, Mr. Cox, that the 
recommendations of a commission like the one proposed by GTI 
could threaten the collective bargaining rights of Federal 
workers?
    Mr. Cox. Yes, sir, that would be a concern.
    Mr. Cartwright. Okay.
    Mr. Cox. Say that point blank.
    Mr. Cartwright. Thank you. I yield back.
    Mr. Mica. Mr. Welch, gentleman from Vermont.
    Mr. Welch. Thank you very much, Mr. Chairman.
    It's tremendous to have you all here. It's like you all 
have experience and accomplishments and practical judgment.
    Here's how I see the problem. I'd like to get your 
reaction. There is in Congress a very serious debate about the 
size of government. There's a very serious debate about how 
much we should spend and how much we should tax. But what has 
happened is that in this debate, every line item in the budget 
for every negotiation affecting workers becomes a proxy for the 
different points of view, so that there's no ability to 
actually step back and ask the questions that you're suggesting 
we ask about how can we make what we're doing work better and 
function better.
    One of the things I've been appalled at is that we 
literally can't even agree on the things we agree on here, 
because if you do that it is perceived by one side or the other 
that we're caving in on some macro principle. When in fact 
there's a very simple principle that I hear you all to be 
advocating for and that's let's make things work, let's not 
waste money.
    One of the proxies has always been anything--Mr. Cox, I 
appreciate you being here--is we're beating up on the Federal 
workers as though they created the problem. And that's 
outrageous. You know, if there's problems, let's deal with them 
in a direct and straightforward way.
    So, in fact, the exact design of the commission you 
propose, we might have to debate and discuss that. But it is 
overdue for us to have an opportunity to take a fresh look at 
what we're doing, how we're doing it, and actually to give 
Congress this space to focus on practical implementation 
issues, similar to what you did, Dr. Kamarck, when you did your 
reinventing government with President Clinton.
    And, by the way, I noticed that you had the boldness to 
eliminate the Tea-Tasters Board. And I'm telling you it's time 
to do that again.
    So I just want to have each of you make a brief comment 
about that, because I think some of the apprehension up here is 
that you're, ``intruding into Congressional space.'' But, in 
fact, I don't see that, because what you're talking about, as I 
understand it, is just making the things we do work. You're not 
asking for this commission to be able to essentially make 
decisions about the allocation of resources and the political 
winners and losers, which is fundamentally an elected official 
position.
    Let's start with you, Mr. Walker.
    Mr. Walker. This is not a policymaking body. The 
policymaking is done by the Congress and the President. This is 
dealing with the organization, operations of government. This 
commission could not direct any agency to do anything. This 
commission is not talking about changing the collective 
bargaining process. It is how to do things better, to improve 
performance, to improve economy, efficiency, and effectiveness.
    Mr. Welch. Mr. Goldsmith.
    Mr. Goldsmith. It seems to me the question really is what's 
the forcing mechanism going to be to rethink government. And 
it's a mistake to make it about the public employees, right, 
there's a whole range of folks who have vested interests in the 
status quo. The way the committee structure is organized, 
right? The way the constituent groups and stakeholders benefit 
from a particular program, right? The way the incumbent vendors 
are participating, right? The issue is, any time you are 
considering big change, right, the beneficiaries of that change 
don't know who they are or they don't believe you, and those 
adversely affected really know who they are and they really are 
against you. So the suggestion is you need some forcing 
mechanism to reconsider the shape and size and methods of 
government seems to me to be inescapable.
    Ms. Kamarck. I totally agree with Mr. Goldsmith. 
Commissions, in and of themselves, they're forcing mechanisms. 
That's what they are. The ultimate authority is congressional 
authority. But what the commissions do is, think of them a 
little bit like canaries in a coal mine. Okay? They put things 
out there. They put thing out there for you all to test, to 
bring back to your home districts, to see how they fly, to see 
if they can work. And I think that that's the role that a 
commission like this could play. And I think historically 
commissions actually have played that role.
    Mr. Chenok. And the key goal for a commission or any 
transformation-type initiative is to reach out to the 
constituents, to the employees, to the managers, to the 
nonprofits, State and local governments, the whole value chain 
of organizations that are involved and get their ideas in 
early, and then use this opportunity to step back, a 
commission-type structure or other similar-type structure, to 
say, how do we answer the questions, how do we improve services 
that ultimately make government work better for the people that 
we're trying to serve.
    Mr. Welch. Mr. Cox.
    Mr. Cox. I think your big question, it's about the debate 
of the size of government. I think the real question is, it's 
about the debate as to whether the government work is done by 
government employees or is it done by contract outside 
workforce. And that seems to be the debate. Government 
continues to grow. Now the debate is over which employees would 
do the work and those that would serve the government best in 
doing it.
    Mr. Welch. Thank you. I yield back.
    Mr. Mica. Thank you.
    The gentlelady from California, Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you.
    And I want to thank each of you for being here today. There 
is great discomfort up here for most of your testimony because 
you are disrupters. And I actually like disrupters. So I'm glad 
you're here poking at us. You know, we have to look ourselves 
in the faces and in the mirrors and recognize that only 10 
percent of the American people even think we're doing a good 
job. So we have got to start looking at doing things 
differently.
    So I'm very interested in what you are proposing. I don't 
know that I would go as far as you're going with it. But I 
think there's great merit in having commissions that force us 
to be more introspective in terms of our work.
    But I want to focus on something that is probably 
uncomfortable for all of us, and that's the acquisition 
workforce. The acquisition workforce in 1990 was 165,000 
Federal employees. By 2009, it had dropped to 106,000. They 
were doing three times the level of work and higher levels of 
complexity. And with all of that, the question is, what did we 
get?
    And reinventing government, that was embraced by so many of 
us in the Clinton administration--and, Dr. Kamarck, you were 
very engaged in that--this is one of the things I've recently 
read about that. That because the DODs acquisition workforce 
was so decimated as part of that reinventing process that what 
happened was that we relied on contractors to act as lead 
systems integrators, resulting in a $13 billion in cost 
overruns for the Coast Guard's Deepwater program, a billion 
dollars for the Army's failed Future Combat System program, and 
another billion dollars for the Air Force Expeditionary Combat 
Support System, and DHS' failed $1 billion SBInet.
    So we're not doing it right, anyway, it appears to me. I 
find that the Department of Defense is worthy of great 
scrutiny. And we internally here do not scrutinize it. I serve 
on the Armed Services Committee. We can't write blank checks 
big enough to fund programs.
    And I'm curious if any of you have contemplated whether to 
narrow this commission idea and focus in particular on where 
the biggest chunk of money is being spent, where we have gone 
to contractors, have done it internally. It doesn't seem to 
work either way.
    Mr. Walker, you have a comment.
    Mr. Walker. First, DOD has 7 of 30 high-risk areas on GAOs 
High Risk List, plus they share a number of the others system-
wide. I was on the Defense Business Board as an ex officio 
member for 7 years. And what is envisioned by this commission 
is it would exist for several years and that it would look at 
various issues on an installment basis. There's absolutely no 
question that acquisition contracting cries out for a priority 
to be looked at. There's absolutely no question that DOD is a 
big part of that because they're the biggest acquisition.
    I know personally that if you look at the manuals at DOD, 
they have all the right words but they don't follow those 
manuals. There's no question in my mind that we don't have 
enough qualified government employees in the acquisition area 
with the right kind of skills and knowledge, with the right 
kind of classification performance system.
    So part of the idea would be, is it within the scope? Yes. 
The question is, what is the priority? And that's something 
that would have to be done in consultation with the Congress 
and the President to try to be able to make sure we're focused 
on the right things to get results as quick as we can.
    Ms. Speier. Anyone else?
    The reference to the Hoover Commission, yes, it was highly 
regarded. We had a Little Hoover Commission in California, 
which I was actually a member of for a number of years. But in 
those cases, it did not force congressional action. It created 
a sense of accountability. You had to respond to what those 
commissions were putting out in terms of recommendations.
    So I'm wondering to what extent your concept could be 
modified so it wasn't so much an over--I think it's 
overreaching to somehow have this commission tell the agencies 
what to do. So.
    Mr. Walker. Well, first, it can't tell the agencies what to 
do.
    Ms. Speier. With the assent of the President, it could.
    Mr. Walker. Well, yeah, the President would tell the 
agencies what to do. What it would do is it would 
recommendations to the President or it would make 
recommendations to the Congress, and those would be the 
decision makers, if you will. So it couldn't do anything 
directly.
    Secondly, you know, obviously, the legislation would have 
to determine whether or not Congress ought to be able to amend. 
You may decide to change that and say it should.
    I would respectfully suggest that the institutions were a 
lot higher regarded in the 1940s and the 1950s than they are 
today. And I would also respectfully suggest that they were a 
lot more functional in the 1940s and 1950s than they are today 
for a variety of reasons. I'm talking about the Congress.
    Ms. Speier. My time has expired, and I yield back.
    Mr. Mica. Thank you.
    Gentleman from California, Mr. Cardenas.
    Mr. Cardenas. Thank you very much, Mr. Chairman.
    I'd first like to try to put this into context with a 
question of something that's going on right now in this 
legislative body when it comes to food stamps. This week, the 
House will consider a farm bill. Republicans in Congress are 
framing the debate to highlight food stamp fraud. The debate 
is, in my opinion, perhaps, an excuse to use fraud as an excuse 
for cutting food stamp programs.
    The farm bill that the Republicans are bringing to the 
floor would reduce funding for the food stamp program by over 
$20 billion over the next 10 years. The truth is that the food 
stamp fraud is declining, according to a New York Times article 
published yesterday. The rate of food stamp fraud, and I'll 
say, ``has declined sharply in recent years. Federal data shows 
and now accounts for less than 1 percent of the $760 billion 
program.'' Cutting the food stamp program in the name of 
reducing fraud, in my opinion, is outrageous.
    Mr. Walker, how would your proposal avoid this type of 
result? How can we be sure that the commission would not be 
used as a political tool to cut important programs in the name 
of reducing fraud?
    Mr. Walker. Candidly, I think you make an excellent point. 
I mean, across-the-board type of approaches don't work. They 
don't make sense. What this commission could do is it might 
look at what is being done in order to minimize the possibility 
of fraud occurring, what are the facts, and what can be done to 
try to get it as low as possible.
    So if it would be making recommendations, it would be 
designed to find out what's the ground truth with regard to 
whether or not there's fraud and whether anything can be done 
to reduce fraud and to minimize it in a way that would save 
money rather than an across-the-board approach to say that 
we're going to cut X because we think that there's a certain 
amount of fraud in the program.
    Mr. Cardenas. Well, at this particular time on this issue 
that I just brought up, and many issues, there's a lot of 
academia who have opinions about it, people with Ph.D.s, people 
who study it, people who actually bring us tangible facts that 
should help Congress make decisions. What's the difference 
between us just listening to those minds out there versus 
having a commission that is actually, in my opinion, just the 
way it seems to appear right now, having appointment by the 
President, Speaker of the House, the Leader of the Senate, et 
cetera, minority leaders, et cetera, that in and of itself to 
me sounds like it brings a bit of politics to the balance of 
how we even create a commission.
    Mr. Walker. How it's appointed obviously is subject to 
discussion and debate. It could be appointed a different way. 
You want it to be comprised of capable, credible, and 
nonconflicted individuals, and you want it to be something that 
there's buy-in from both the President and the Congress, where 
there's bipartisan buy-in. I mean, ideally, you like them to be 
nonpartisan players that can get bipartisan support. But this 
world doesn't work on ideals, unfortunately.
    Mr. Cardenas. See, the thing is, what I've been hearing in 
this dialogue going back and forth, terms like ``improved 
performance,'' ``a supplement to,'' I look at this as an 
artificial way of saying let's just call this the Viagra for 
Congress or Federal Government. And I'm not trying to be cute, 
I actually have acronyms: Very Important Academic Gathering of 
Rigorous Activity.
    To me, that's what commissions do. They have a lot of 
thought, they have a lot of great dialogue, they produce 
reports, sometimes volumes thick. And yet at the same time the 
democracy that we have in this country really isn't, in my 
opinion, it shouldn't be at the end of the day about perceived 
performance. It should be really about actual performance.
    And one of the things that I think Americans forget about 
is when times are good for that family or for that particular 
company that they work for, they think that government is too 
big. They think that government ought to just go away. Yet at 
the same time, when times get tough, like with the experience 
over the recent years, all of a sudden people who didn't used 
to depend on government now depend on government, and they, 
unfortunately, don't thank their lucky stars that there is that 
safety net.
    Yet at the same time I think that when people talk about 
Congress has one of its lowest approval ratings, I would 
venture to say if academics or anybody would go back into 
history you would hear that there are points in time where 
elected officials were not held in high regard, generally 
speaking. Yet at the same time, even when we're down to 10 
percent, when it comes to overall Congress, you would probably 
find that people actually who get to touch and feel and talk to 
their actual congressional Representative, they think they hold 
them in a little bit higher regard than 10 percent.
    So my point is that what would be the difference between 
what is going on today and what this commission could possibly 
actually bring in real, tangible reality, not just perceived 
reality?
    Mr. Walker. I think Mr. Goldsmith said it. This is a 
mechanism that will set the table, that will provide a means 
for Congress to make a decision. The whole idea is to make 
specific, actionable recommendations--that is not happening 
right now--and to guarantee that there would be hearings and an 
ultimate decision. Now, you may decide that there should be 
amendments in some form, and that's your prerogative. But you 
need a mechanism where there are specific, actionable 
recommendations and there's guaranteed a decision one way or 
the other by constitutional officers.
    Mr. Cardenas. Thank you.
    Mr. Mica. Thank the gentleman.
    I was going to conclude with some questions, but we'll go 
to a second round here if members had questions. I think Mr. 
Duncan had some questions. Recognized.
    Mr. Duncan. Thank you, Mr. Chairman. I would pronounce your 
name Dr. Kamarck. But I've heard them say Kamarck.
    Ms. Kamarck. Kamarck.
    Mr. Duncan. Kamarck is the way?
    In your written testimony you say the Federal Government 
consists of a whole lot of good people caught up in a whole 
bunch of very crazy systems. Of course, at the time each rule 
was created, it made sense, solved a problem, and worked in the 
public interest. But over time the accretion of rules and 
regulations ends up costing us money and frustrating the 
public.
    I was fascinated with that because I was a lawyer and a 
judge before I came to Congress, and there are so many 
thousands of laws and rules and regulations on the books today 
that almost everybody has violated a law at some point, 
especially a tax law, but other laws as well. And an innocent 
mistake is not supposed to be criminal, but a zealous 
prosecutor can make the most innocent mistake look criminal.
    So I've got really two unrelated questions, but the first 
would be, don't you think that if we set up a commission that 
one of the main goals should be to wipe a lot of these crazy, 
unneeded, unnecessary, confusing laws and rules and regulations 
off the books so people can understand what they're supposed to 
do or not supposed to do?
    And then secondly, you mentioned a while ago that almost 
every time there was a problem, it couldn't be taken off the 
books because somebody was making money off of it. And I've 
been fascinated by that, too, because I spent 10 years on the 
Public Building Subcommittee, and all this money came through 
there for all these Federal courthouses and Federal buildings, 
and I noticed that State governments were building beautiful 
courthouses for half the price that the Federal government was 
building.
    And what I'm wondering about on that, I mean, because of 
waste and inefficiency and the bureaucracy, we've been forced 
in many ways to go to Federal contractors, yet Federal 
contractors are making rip-off, unbelievable profits at the 
expense of the public.
    What you do say about those two things?
    Ms. Kamarck. Well, on the first one, I'd say that it is 
absolutely true that we have a regulatory system that sometimes 
defies common sense and that we need to go through our 
regulations agency by agency, toward simplification. It should 
be easy for people to comply with regulations. They should 
still achieve their objective of public health and public 
safety. And we did this, 20 years ago, we did this with OSHA, 
we did this with EPA, we did this with a whole variety of 
regulatory systems. And I think it's time for a systematic 
regulatory review that ends up protecting the public interest 
but also making it simpler for people to comply with 
regulations.
    Secondly, there are entire professions who love the fact 
that government is complex and takes a long, long time to do 
things, because they are the people who then end up being the 
intermediaries in systems that should be accessible from the 
public to the government directly. And yet because of 
complexity what happens is an entire industry of 
intermediaries, usually much more well paid than the individual 
citizen, grows up in order to interact with the government. And 
I think that that's one of the unfortunate results of 
complexity and letting our system get so complex that 
individuals can't go to the government directly and complete a 
transaction with the government without a set of 
intermediaries.
    Mr. Duncan. Well, thank you very much.
    Mr. Goldsmith, you said a short time ago that the system we 
have now for Federal employees is unfair to the employees 
because you have 25 good employees, I think you said, with 100 
regular employees, or something to that effect. Do you think, 
as many people do, that it's too hard to get rid of a really 
bad employee?
    Mr. Goldsmith. Absolutely.
    Mr. Duncan. What should be done about that? Should we 
reform the civil service system so----
    Mr. Goldsmith. Yes. I mean, I think we have problems in 
both ends the system, right? The high performers don't get 
rewarded well enough, they don't get recognized early enough, 
they don't get promoted early enough. And the low performers, 
we don't weed out quickly enough. And the processes we utilize 
are obsolete. And we, therefore, complain about the results we 
get.
    Mr. Duncan. All right.
    Dr. Kamarck.
    Ms. Kamarck. One of the things that we could never do 20 
years ago was reform the civil service. And I'll tell you the 
reason, is that Congress insisted on making the topic of civil 
service reform a debate over collective bargaining. And as 
Democrats, we weren't going there. Okay. And yet there was no 
center. Okay. There was no center in the Congress for looking 
at civil service reforms.
    The Federal workforce is not overwhelmingly unionized. 
Okay. And yet every time you open up civil service reform, it 
goes right to collective bargaining. And yet there's whole 
areas of managers, et cetera, who really could use a different, 
better, more flexible system. And yet the politics takes you 
right to collective bargaining, and it's kind of a dead end.
    So I would hope that perhaps an approach to civil service 
reform could be developed that gets to some of the core 
problems, which, frankly, don't have anything to do with 
collective bargaining.
    Mr. Duncan. All right.
    Mr. Walker.
    Mr. Walker. I just want to reinforce that. This is not a 
collective bargaining problem. I mean, people ought to have the 
right to bargain, and we're not proposing to touch that at all. 
But our classification, our compensation, our performance 
measurement reward systems are based on the 1950s.
    I'll give you a perfect example. At the GAO, we had people 
who were two levels below in responsibility performing at an 
average level, making more money than people two levels higher 
in responsibility performing exceptionally. That's not right. 
Okay. Now, these were all good people. They were all good 
people. GAO has great people. But we need to have more 
flexibility with regard to classification and compensation. And 
a vast majority of people in government do a good job and a 
vast majority of them, you know, frankly, are as well educated 
and as dedicated as anybody in the private sector. I mean, 
frankly, at least that's been my experience. But they're in a 
bad system,they're in a system that's based on the 1950s.
    Mr. Duncan. All right. Thank you very much.
    Mr. Mica. Additional questions from Mr. Cummings, the 
ranking member.
    Mr. Cummings. Thank you very much.
    Mr. Walker, under the Government Transformation Initiatives 
proposal the commission would operate a monetary fund. Is that 
right?
    Mr. Walker. I don't know if that's feasible. The idea would 
be is if you could create a fund and have it be self-funding 
after a period of time. I'm not sure that that's feasible under 
the current appropriations process here in the Congress. 
Ideally, that's the way that it would work. But it may not be 
able to because of how Congress works.
    Mr. Cummings. The reason why I ask that is in its May 2013 
white paper, GTI states that the purpose of the fund is to 
provide, ``financial resources and oversight to support 
initiatives designed to improve the economy, efficiency, and 
effectiveness of the Federal government.'' I understand what 
you just said. But what type of initiatives would be given 
money through the fund?
    Mr. Walker. Well, the idea would be is that you want people 
to benefit from this. Okay. You want the departments and 
agencies who are part of the process to achieve these 
economies, efficiency and effectiveness to somehow be 
recognized and rewarded in some way. If we create this fund, 
the idea is it might be able to be used when employees come 
forward and say, look, we have a good idea, some things that 
could be done that would improve economy, efficiency, and 
effectiveness. So it's an innovation fund. It's a way to try to 
be able to take a portion of the savings and to be able to 
reinvest it in innovation and in continuous improvement with 
regard to economy, efficiency, and effectiveness.
    Mr. Cummings. Now, I know this is a proposal, but would 
this be allowing private sector initiatives to be eligible for 
the funding or would it just be for the government?
    Mr. Walker. It's for the government.
    Mr. Cummings. GTIs white paper says the fund will be 
discretionary to the commission and will have no fiscal year 
boundaries or limitations. Do you propose allowing the 
commission to be the sole decider in who would be awarded money 
from the fund?
    Mr. Walker. That would have to be worked out. Candidly, Mr. 
Cummings, the way that the appropriations process currently 
works right now, this concept is one that I think has merit but 
probably won't work under the current rules in the Congress 
right now. You would probably have to turn the money back in, 
and then there would have to be an understanding as to how some 
of that--the commission might be able to recommend to the 
Congress to reinvest some for certain types of activities, and 
the Congress would then have to appropriate it. That's the way 
it would probably have to work. This is a more innovative way, 
it's a more flexible way, it's a desirable way, but I think 
under the current rules would be very difficult, if not 
impossible to make happen.
    Mr. Cummings. GTIs white paper also says that the GTI 
itself could undertake its own innovation or improvement 
initiative. What's the purpose of that?
    Mr. Walker. Consistent with the scope. In other words, 
Congress would decide what the scope of GTIs responsibilities 
would be. For example, one of the things we suggested was you 
look at GAOs High Risk List. You look at some of the items that 
have been identified by the Office of Management and Budget 
that they want to deal with. You look at some of the issues 
with regarding Inspector Generals. And so once the scope is 
determined, you know, that would have to be in the legislation, 
you would determine what the scope, then GTI would have 
discretion over what to examine, when.
    Now, candidly, it would be very important to me that there 
would be very close consultation with the Congress and with the 
administration on what gets looked at, when, because the whole 
objective here is to achieve positive outcome-based results. 
And so you want both the Congress and the executive branch to 
say, yes, this is something that needs to be looked at, we 
agree it needs to be looked at, because the last thing you want 
is for this commission to do a bunch of work and to make a 
bunch of recommendations that go nowhere. Then you're not 
achieving anything. And the objective here is to achieve a very 
high rate of return on investment. And to do that you've got to 
have alignment from the Congress and the President that these 
are issues and areas that they want recommendations on that 
they'll act on.
    Mr. Cummings. What do you all see as the greatest obstacles 
to getting to where you're trying to get to? Anybody? I mean 
the folks that are for the proposal, that is.
    Mr. Walker. Greatest obstacles--what I would say is, is the 
commissions aren't exactly something people have viewed with 
favor recently because of the fact that there are many 
commissions that have existed recently that have not achieved 
positive outcome-based results. But in our view, the difference 
is this is about economy, efficiency, and effectiveness, which 
is an issue that every American cares about. In addition, you 
know, we're at a time where our finances are under significant 
strain. And, in addition, we recommend that this be a statutory 
commission that would guarantee hearings and guarantee a 
result.
    And so when people think about commissions they say, well, 
we've had commissions, they haven't worked. But the way this is 
being designed to be aligned is to differentiate between what's 
worked and what hasn't worked and to deal with an area that the 
American people cry out and say needs to be dealt with.
    Mr. Cummings. You know, one of the things that I see here 
in the Congress, and I've seen it in life, is that there are 
things that happen in life that I say are pregnant with 
transformation; in other words, there are moments of 
transformation. It happens to all of us. And, you know, the 
interesting thing is that when those things happen, if you 
don't transform, it usually gets worse. You know, if it's a bad 
situation, it usually gets worse. And we see it here on Capitol 
Hill all the time. And I'm not knocking anybody, but we just 
saw the gun situation. Nothing happened, you know. And we'll 
see it over and over, in all kinds of things. I don't want to 
get too into gun stuff. But just as an example.
    I don't know what has to happen to jolt us. I don't know 
whether it's the sequestration that's happening now to cause 
people to say, wait a minute, we can't keep going. My 
constituents ask me, you know, when are you all going to get it 
together? And I keep telling them, I know we can't keep going 
down this road or we're going to self-destruct. I mean, 
comment--I see my time is up. Yes?
    Mr. Goldsmith. Just real quickly. I mean, I think what you 
just said is so insightful. This is a time that's pregnant with 
transformative possibilities, right? We've had huge changes in 
how government can operate, right, we have wireless tools and 
GPSs and data analytics, we have things that were totally not 
even imaginable when the structures of government were set up, 
right? So we're kind of running government on this kind of, I 
don't even know, model. I don't think it's the 1950s, as Mr. 
Walker said, I think it's like 1930s Model T Ford operation 
with all these new tools and technologies. And it needs some 
forcing mechanism to rethink the functions of government to 
give the American taxpayers what they deserve, and it's 
possible.
    Mr. Chenok. And I think your point about the transformative 
moment coming at any point and having the ability to take 
advantage of that is very insightful, Mr. Cummings. So many 
Federal employees and entities that work with the Federal 
government are involved in important missions every day in 
delivering programs. And they don't have the mission to sort of 
sit back and say how can we do it better because they're 
delivering what they're doing on a daily basis. And the 
commission would be that forcing function, as Mr. Goldsmith 
described, or a similar process.
    Mr. Cummings. Thank you all very much.
    Mr. Mica. Thank you.
    Mr. Woodall.
    Mr. Woodall. Thank you, Mr. Chairman.
    I come from a rock solid conservative district in the Deep 
South right outside of Atlanta. But I mention Mr. Cummings name 
regularly these days. The name Elijah Cummings has been 
mentioned more in the last 6 months than it has in the previous 
200 years of our district's influence, because I am so 
impressed with his pursuit of those transformative moments. I 
saw everybody's head nodding as he told that story, right up 
until he got to guns, where he was so far off base, I was 
surprised. I see him nodding along with that.
    But watching heads nod, Mr. Cox, I've actually seen that a 
lot today. I mean, we're talking about transformative moments. 
We've got folks on both sides of the aisle looking at a moment 
of possibility. Even the discussion about can't we reward 
Federal employees who are succeeding, can't we recognize those 
folks who are performing, universal agreement that we are 
under-recognizing and under-rewarding those folks. And your 
head wasn't nodding during that discussion.
    My question to you is, is it your responsibility to 
represent all Federal employees, the performers and the 
underperformers? Or is there a mechanism within your 
organization to be part of the head nodding that says, yes, 
doing better for Federal employees does not mean protecting the 
under-performers, it means recognizing the over- performers and 
getting them the recognition they deserve?
    Mr. Cox. First, I'm a clinical nurse specialist in 
psychiatry. So I was taught by profession to not display a lot 
by body language and things of that nature, but to listen.
    Mr. Woodall. Don't play poker with Mr. Cox.
    Mr. Cox. As I've listened today, and what I hear frequently 
when I'm over here on Capitol Hill, there is a lot of 
conversation about the poor performers, poor performers. Most 
of us believe that that is a very, very small number. Most 
people get up every morning, going to their job, wanting to do 
a great job.
    The Federal Government is designed probably that more 
emphasis is put upon the poor performers and not very much on 
those stellar performers. The system of pay, 3 years of a pay 
freeze has not been very kind or motivating to any Federal 
employee. We understand that. Also, to be able to properly pay, 
compensate those employees, and to reward and recognize them. 
There's not a lot of emphasis in the system over that.
    Mr. Woodall. I think that's a yes to my question. You 
identify very few employees as being under-performers. You 
identify absolutely the same problem the rest of us do about 
failure to recognize high performers. You do believe that a 
misconceived, though widely held belief that if Federal 
employees are under-performing, is dragging the whole team 
down. And so you would say there is an opportunity to get the 
Federation on board with reformers, with Democrats, with 
Republicans, and free up the space to eliminate under-
performers at the same time we free up the space to recognize 
and reward high performers.
    Mr. Cox. Yes. And we would certainly say that we believe 
there are many things already in place to deal with the poor 
performers. Trust me, in my career, I have seen many of them 
that were terminated from Federal service. And, you know, as a 
representative, I remind them frequently they were going to be 
terminated and they lost their job. I see very, very little 
time spent on all those people that do a great job.
    One thing that I would always raise the caution, and I'd go 
back to comments I made earlier today about the pay for 
performance, and we look at that, frequently what I see in 
agencies is there's a desire to take the money away from lower 
grade employees that do a great job and that it's very 
important for what they do to shift that money to higher grade 
employees because they are more into a pay-for-performance type 
system, or things of that nature. We believe all Federal 
employees should be treated fairly in that mannerism.
    Mr. Woodall. Let's talk about shrinking the Federal 
workforce. Now, one of those other head-nodding moments that we 
had here at the table was when we talk about those areas of 
government that might have been critically important in 1930 
and maybe even partly necessary in 1960 but perhaps today need 
to be eliminated and replaced with something different. Does 
the Federation have the ability to support shrinking Federal 
Government, shrinking your membership, but in the name of more 
effective government and as a result a higher regard for your 
membership?
    Mr. Cox. We have taken very firm stand that we believe you 
need to take a serious look at the contracting out. There is a 
shadow government workforce that is not Federal employees that 
I suspect is much higher than the number of Federal employees. 
And as I referred to earlier, the amount of service contracts, 
and particularly in DOD, and their overspending as such, many 
times it's been shown that if you can do the work with Federal 
employees you do it in a more efficient and a more economic 
mannerism than to have the contract employees.
    Mr. Woodall. Would it be fair to say that the answer to my 
question of would you be comfortable reducing the Federal 
workforce was, I think we need to increase the Federal 
workforce because we have too many contractors? Did I 
understand you correctly? Because I didn't hearing anything 
about reduction being something you all could----
    Mr. Cox. I would certainly think you could decrease the 
contract Federal workforce, yes, sir. The Federal workforce, in 
general, when you look at the Federal Government through the 
years, is still the number of Federal employees--and I have 
people that's probably absolute experts here to look over here 
for 20 years ago--there's about the same number of Federal 
employees. Maybe it goes up a little, it goes down a little. 
But it has not been an astronomical increase.
    If you go corporations, many of those corporations would 
measure their success by that they now have more employees 
working for them and doing many more things. So, I mean, when 
you think about the Federal Government, if you want it to be 
like the private sector, most private sectors are constantly 
increasing their workforce because that's a measure of their 
success. And I am not recommending that, sir, but I am saying 
the number of Federal employees out there has stayed fairly 
consistent through the years. It's the shadow workforce, the 
contract workforce that has certainly been an astronomical 
number.
    Mr. Woodall. My time has expired. Again, I thank you all 
here. Many of you--none of you are working on your behalf, 
you're working on my of my folks back home, and I very much 
appreciate that.
    Mr. Mica. Thank the gentleman.
    The gentleman from Nevada, Mr. Horsford, you are 
recognized.
    Mr. Horsford. Thank you, Mr. Chairman. And I am really 
pleased that after nearly 6 months as a member of this 
committee, as a freshman, that we're finally starting to talk 
about the government reform aspects of this committee's charge. 
And as a former State legislator who has faced very difficult 
challenges to balance our budget during the recession, you 
know, reforming, transforming governmental agencies to more 
effectively serve constituents is what many State governments 
have done. And I do believe that the Federal Government should 
be leading the way. And so I really commend this panel for 
being here and the chair and the ranking member for scheduling 
this hearing.
    Mr. Cox, I do want to echo part of the comment that you 
made and the need for really employee input into this process. 
What I learned through the process that we went through in the 
State was listening to our employees. We were able to identify 
savings and efficiencies and ideas for how we could reform that 
we weren't getting from agency heads, that we weren't getting 
from the directors. It was the rank-and-file people who were 
talking to constituents every day that have some of the best 
ideas for how to make government work more effectively. 
Unfortunately, they are not asked enough. So I want to commend 
you and your organization for making sure that they are part of 
that effort.
    Dr. Kamarck, it is good to see you. And, you know, you have 
a very unique perspective since you served as a senior advisor 
to Vice President Gore during his reinventing government 
effort, and so I want to ask you a couple of questions about 
how do you operationalize this. Today we're having a conceptual 
discussion about the need to reinvigorate this process, but I 
want to get to how do you do it. So approximately how many 
individuals worked on the team responsible for implementing the 
reinventing government effort when you were there?
    Ms. Kamarck. We began with around 400 individuals. Almost 
all of them were Federal employees who were lent to the White 
House for this initiative. We had a handful of consultants, 
mostly writers like David Osborne, who actually did the writing 
of the report. We had a handful of people from State government 
who were lent to us under the Intergovernmental Partnership 
Act, or whatever it is, that allows you to do that. So it was a 
fairly large team.
    We issued the first report in September. Most of the people 
on that team went back to their agencies. And then we existed 
for the rest of the 8 years with somewhere between 50 and 70 
employees. A couple of employees, like Mr. Bob Stone, who was 
lent to us by the Defense Department, the Defense Department 
was nice enough to give him to us for the duration of the 
administration. So there were a handful of people like that.
    Along the way, we did regulatory reform initiatives, and we 
would put together teams, mostly from the Federal Government. 
People that we got from the outside we never paid because we 
never did have a budget. So they were just volunteers under the 
FACA Act, and we had to, you know, adhere to all of those rules 
and regulations.
    When we initially started in the first year we also had 
teams created in every Cabinet department. So, you know, if you 
were to add all of those people up it would be, you know, 1,600 
people or something. But they were in the department working on 
their own reinvention activities. What we were doing is leading 
and stimulating this effort throughout the Federal Government.
    Mr. Horsford. How many government contractors or consulting 
firms would you say were involved directly on the task force?
    Ms. Kamarck. None.
    Mr. Horsford. Why not?
    Ms. Kamarck. We didn't see why we should give them this 
incredible, you know, insight into government so that they 
could then go make money off it. So we truly believed that it 
was the employees of the government who had the expertise to 
tell us what was, you know, what was happening.
    Mr. Horsford. And these were employees at all levels.
    Ms. Kamarck. Well, they tended to be more senior levels, 
mostly because they were people who had been around a long 
time. I mean, our leadership team had 75 years of experience 
working for the Federal Government, often for several different 
agencies.
    Mr. Horsford. Mr. Walker, really quick, the Government 
Transformation Initiative's current coalition members include 
Accenture, Grant Thornton, Serco. Between them, these companies 
have billions in dollars in government contracts. Do any of 
these entities that are members of the GTI coalition stand to 
profit in any way from any of the reforms that the GTI might 
propose or implement and how do you safeguard against that?
    Mr. Walker. Sure. It's about 3-1 nonprofits to for-profit 
as far as the coalition. Those firms are members of the 
coalition. They could potentially get some work out of this 
effort. But whether or not it's going to be a net plus or minus 
for them over time is very questionable, because it could very 
well turn out that the most economical, efficient, and 
effective way for certain things that are being done now would 
be to be done by government workers under a reformed budgetary 
process and civil service system.
    Mr. Horsford. But there are some aspects--and this is, 
again, something we learned in the State government----
    Mr. Walker. Sure. Sure.
    Mr. Horsford. --that are actually legislatively required to 
be done by the Federal Government and can't really be 
outsourced. Correct?
    Mr. Walker. Correct. Absolutely. And this does not deal 
with policy matters. Okay. That's a policy decision, okay, that 
you've made. This has to do with how you organize, how do you 
execute to try to achieve on mission. That's what it deals 
with.
    Mr. Horsford. Okay.
    Mr. Walker. And if I can, I want to show some areas of 
agreement. I mean, I agree that you have to get employee input. 
That's a critical part, that's envisioned in our paper. I agree 
there are very few poor performers in government. We spend way 
to much time on that. And I also agree that if you're going to 
have a pay-for-performance system, it needs to be to all levels 
of the workforce. And that's what we did at GAO, it was all 
levels of the workforce. It was pay for performance at all 
levels.
    Mr. Horsford. Do you envision that government contractors 
would have any formal role in the work of the commission?
    Mr. Walker. Well, what is envisioned is that the commission 
would be the body that would decide what was going to be done, 
who was going to do it, what findings and recommendations would 
be made. Those would be people that would be capable, credible, 
nonconflicted, there wouldn't be any contractors involved 
there, people that would have a conflict. That the work would 
be done with a combination of outside contractors, and 
government employees, but that the staffing of the engagements 
would be such to make sure that there weren't conflicts.
    You wouldn't have one particular firm doing all the work, 
you would have a combined team that would be determined by the 
commission in order to minimize the potential even appearance 
of a conflict of interest and that ultimately the decisions 
with regard to what were the findings and the recommendations 
would rest with the commissioners, not with the firms or the 
individuals associated with the firms.
    Mr. Mica. I thank the gentleman.
    Now I'll yield to Ms. Maloney, who has been waiting.
    Mrs. Maloney. Thank you very much. It's an interesting 
concept. But how is it different from the General Accounting 
Office, which is now funded by government and in a bipartisan 
way to look at government problems, come forward with best 
practices, call upon the agencies to implement them. We have 
many hearings on that. They come forward with worst examples of 
government waste and they make proposals of how to eliminate 
that government waste. And there have been many attempts to 
approach this, including Vice President Gore's reinventing 
government with Dr. Kamarck and also the Grace Commission under 
former President Reagan. The sunset provision, which Common 
Cause pushed, that you would have to every 5 years basically 
justify your existence and show that you were doing a good job 
or you would be closed down.
    And I would say that all of these approaches are more cost 
effective than what you're proposing. We just had a huge 
government scandal where the Federal Reserve handed out $3 
billion in private contracts to review foreclosure practices. 
And some of the finest companies in America did the work. It 
came back, they said they didn't really see a problem. And they 
finally stopped spending billions of dollars and decided to 
just give the money directly to the homeowners that had been 
wronged.
    So what safeguards are there that it doesn't become again 
runaway government? What we hear all the time is government 
just keeps getting bigger and bigger and bigger. So we have the 
GAO doing it. We have independent groups and not-for-profits 
reporting to us daily on what they see as problems in 
government.
    And now you're proposing yet another commission that is 
funded for 6 years, can hand out private contracts to review 
areas that they're interested in. You come back with an up-or-
down vote before Congress. And there's not any indication that 
the thoughtful work on how you're going to make government work 
better is ensured. So I just wonder if we are just putting 
another layer on top of the really good work that the GAO 
already does for us.
    Mr. Walker. Well, having been head of GAO for 10 years, 
there are fundamental differences between what we're 
recommending and what the GAO does. The GAO will not make 
recommendations--terminate this, cut this, consolidate this, or 
enhance investments in another item. They don't do that. And, 
in fact, I'm sad to say that the GAO has actually digressed a 
little bit within the last few years when they do their High 
Risk List, that they are no longer identifying which areas on 
their High Risk List actually require congressional action and 
that Congress has to be part of the solution. So they've 
digressed from that.
    So what we're talking about is, as you properly point out, 
Mrs. Maloney, drawing upon the good work that is being done by 
GAO, by the Inspector Generals, by the congressional 
committees, by OMB, drawing upon the ideas and expertise of 
employees at all levels for what their recommendations are, and 
then creating a mechanism that will result in specific, 
actionable recommendations that the elected representatives of 
the people will then be able to make a decision.
    You don't get those right now. You don't get what we're 
proposing. And we believe that that's necessary in order for 
you to make a decision, yea or nay. Has been discussed today, 
as you properly point out, whether or not the Congress ought to 
have the authority to amend. You know, that's something that 
could end up being modified in this proposal. We do believe 
that the current system doesn't work. There needs to be a new 
process to set the table. And we think something along these 
lines is a way to get that done.
    Mrs. Maloney. What is the projection of how much this could 
cost to set it up?
    Mr. Walker. We've not done such a projection. Let's go back 
to something that you mentioned. You mentioned the Grace 
Commission in 1983. The Grace Commission cost $75 million. It 
was also a lot further in scope. It actually dealt with policy 
issues. We're not talking about that. I'm not saying that's the 
right benchmark as all. But $75 million in 1983 is $212 million 
today.
    Mrs. Maloney. Well, my time has expired. Thank you for your 
thoughtful presentation. Thank you.
    Chairman Issa. [Presiding] Thank you.
    Mr. Mica.
    Mr. Mica. Well, thank you, Chairman Issa.
    I sat through the whole hearing this morning and found it 
kind of interesting banter. The problem you have--and I can go 
back and relate to Ms. Kamarck, as I was--I came in 2003. And 
at that time, the focus was on balancing the Federal budget. 
You had a President, although I disagreed with him on some 
issues--well, many issues over his tenure, President Clinton, 
and he had a rocky presidency--he was committed to--in fact, 
part of his platform was some reinventing government. And I 
must say the same for Vice President Gore.
    And we worked very closely together. I became the chairman 
of Civil Service, first Republican in 40 years. I think we had 
about 8,000 OPM employees, Office of Personal Management. We 
targeted that, we eased up about 2500 employees, I believe, and 
reduced from about 8,000 down to 5,000 OPM employees. Made the 
employees stock ownership.
    I say that in the context of the difference of times. No 
one's mentioned today on the panel the politics or the 
philosophy of the current administration. The President's been 
in office going on 5 years. First 4 years, they were committed, 
and I think the Democrats took over the Congress and went on 
spend a spending spree that's probably unequalled in history. I 
guess the first year was $1.5 trillion more than we took in.
    Isn't that about right, David? Mr. Walker?
    Mr. Walker. That's correct.
    Mr. Mica. So you had two different times. You also had a 
Republican Congress that was committed to balancing the budget, 
which we did. Let's see, we took over in 1995, and we balanced 
the budget by 1997. In fact, the debate just 2 weeks before 9/
11 was what to do with about $150 billion worth of surplus. And 
then, of course, you stated, Ms. Kamarck, the difficulties that 
the Bush administration incurred when the United States was 
attacked, results of 9/11.
    But we're in a different era. We are in an era of political 
stalemate. There is no way in hell you're going to pass your 
bill, Mr. Walker, your proposal. We can't agree on a budget. We 
haven't had a budget. Unless some of you are on a different 
planet, I don't see that as a solution. It's a good idea, 
maybe. We've tried BRAC. She's gone. Ms. Maloney cited a host 
of other attempts. But it's not going to happen.
    We can't agree on moving forward. You have a split House 
and Senate. That was quite different. You had the Republican 
House and Senate and they were all headed in the same 
direction.
    Mr. Cox has conflicting goals. Mr. Cox, if you read his 
resume, Mr. Cox, how many employees do you actually now 
oversee, 650,000? I think it's in the lead of your bio.
    Mr. Cox. Yes, sir.
    Mr. Mica. He's touting he just added 50,000 more. That's 
also in your bio, isn't it? Didn't you add 50,000 since you 
became the president?
    Mr. Cox. That was in my tenure as secretary-treasurer, sir.
    Mr. Mica. Well, that's something you're touting, that 
you've added 50,000?
    Mr. Cox. Yes, sir.
    Mr. Mica. So he headed in a different direction, trying to 
increase the number of Federal employees. And, of course, try 
to keep the focus on the contract employees. And Ms. Kamarck 
cited that most of the reduction of the 400,000 came from 
contract. Interestingly enough, wasn't it DOD employees?
    And while you can bash sequestration, and it's not the way 
we should do things, it was the only tool at hand, really, to 
do anything. The same thing happened, I'm getting calls right 
now from people losing their jobs, going on furlough, because 
the DOD contract folks are being laid off.
    So we have different times. Civil service reform. Again, 
you must be smoking the funny weed if you think that's going to 
happen with the way the stars are aligned. It's not going to 
happen. I mean, we could pass it out of this committee.
    Chairman Issa. The gentleman is not a Californian, so I'd 
suggest you be limited in that discussion.
    Mr. Mica. Well, nor do I visit the shops in Colorado. But, 
again, it's not going to happen. I mean, this is all well 
intended.
    Tough times require tough measures. Now, you sent a group 
here, there are some new members along our dais here who are 
intent on cutting, and they have actually forced cuts. And we 
haven't had many ways to accomplish that except the 
sequestration and the pressure that's been applied by the 
American public, because they do get it. We are going bankrupt 
to the tune of $17 trillion. It's only been temporarily 
curtailed.
    So not a lot of questions. I guess some commentary 
listening to the whole thing. I would love to have some 
mechanism. We've tried BRAC.
    I have a question, too. Simple things. Like some of you 
know I've been involved--I did extend additional times to the 
others, Mr. Chairman.
    Chairman Issa. I'm not as kind.
    Go ahead, please.
    Mr. Mica. But, for example, how many of you would turn over 
to the--any of you own property? Raise your hand. All of you 
own property? Okay. How many of you would turn over your 
property to be managed by the Federal Government? Not too many 
hands went up. And the audience I think would be the same way.
    But we have thousands of Federal properties sitting idle. I 
have 500 buildings on 7,000 acres the size of Key West just a 
few miles from here in Beltsville, Maryland, sitting idle and 
trying to get some consolidation. We've tried a BRAC-type 
proposal, which actually passed several times I think in the 
House to deal with just property. We couldn't do it. So it's a 
very tough time, and sometimes it will take a change in 
administrations. We had the leadership that was concurrent with 
a goal in 1993 up to whenever and we did accomplish that. But 
that's just my observation.
    Mr. Walker.
    Mr. Walker. Mr. Mica, I understand your concern that this 
may not be feasible. But let me tell you that we met, we've met 
with people on the administration, I'm meeting this afternoon 
with the new Director of OMB. And I believe that there is an 
opportunity that you can get administration support for 
something along these lines. There are very good comments that 
have been made today about how the concept may have to be 
modified a number of ways. I understand that.
    The real question is, should it happen? And I would 
respectfully suggest that for the benefit of the United States 
and for the benefit of the American people the answer is yes. 
So then the question is, how do we make it happen?
    Mr. Mica. Well, thank you. I remain an optimist and I'll 
use any means. And if you are persistent you can prevail even 
with overwhelming odds.
    Yield back.
    Chairman Issa. Thank the gentleman.
    If he's an optimist, you ought to see this cockeyed 
optimist. I believe that we can and must have it.
    Let me just go through a couple of things. Mr. Cox, do you 
agree that there needs to be a roadmap to modernizing the 
Federal Government's organization periodically laid out? In 
other words, we've evolved to where we are, you mentioned 
nurses that were in various parts of government. Wouldn't you 
agree that whether they are government workers, contractors, 
Active Duty, uniform or civilian, isn't there in fact a logical 
argument to be made that we should professionalize how we 
treat, for example, nurses, and that a roadmap to 
organizationally how you ensure, for example, that a nurse on 
tribal lands and a nurse in a Veterans Administration have the 
same level of education, the same level of preparation, to the 
greatest extent possible the same work rules? Wouldn't you say 
that organizationally that is also part of where you need a 
roadmap to getting that kind of harmonization of what you 
expect from your government?
    Mr. Cox. Yes, sir. And AFGE has actually raised that issue 
on several occasions, because the nurses in the Bureau of 
Indian Affairs, the Department of Defense, and Bureau of 
Prisons have full collective bargaining rights, and the nurses 
in the Department of Veterans Affairs do not have full 
collective bargaining rights. So that was something there I 
think we would certainly agree upon, that they should all be 
treated in the same mannerism, with full collective bargaining 
rights.
    Chairman Issa. Well, we might not go quite that far. But 
certainly we shouldn't have some of covered by civil service, 
some not. And certainly we shouldn't have different standards 
for the patient. I think one thing I can be pretty sure of is 
all nurses think that the same level of care for the patient 
should be available.
    I think Mr. Goldsmith--let me be sure. One of you said 
earlier, I made notes about the number of signatures. I'm 
trying if that was Mr. Walker or Mister--there we go.
    You know, some years ago, when I was--I think we were on 
that side, I was way down the dais--we held hearings on Mineral 
Management Service, the then Mineral Management Service. The 
one thing we discovered was that you couldn't find a lawyer's 
written memo for the record on what happened or didn't happen 
in the case of this investigation. They talked about talking 
over the transom, which is a nice way for saying, complete 
deniability of wrongdoing.
    And there were, if I remember right, more than a dozen 
individuals that had to sign leases on Federal lands. And to a 
person, once you got past the first person who said, I just 
didn't understand what was supposed to be in there, I was 
misled, everyone else said, I only got the cover sheet; I was 
acknowledging that it existed. In other words, I was putting my 
initials. And so you had a dozen initials, only one of which 
was a person who may have misunderstood but thought something 
was correct. Everybody else said, I didn't actually read it.
    Is that part of what you were trying to get to in, if you 
will, single point or at least if it's multipoint, true 
responsibility?
    Mr. Chenok. Much of any organization as it gets more 
complex is that every part of the organization becomes part of 
a process. And you can architect the process so that they're 
informed and knowledgeable. For example, a simple difference 
would be instead of routing a policy or a management directive 
through for signoff, just cc everybody. Have the two or three 
key people who are involved in the decision process be the ones 
who sign off and have everybody else understand it and know 
about it and have the opportunity to comment.
    That type of very simple reengineering can change a lot of 
government processes. When I was an employee, I often saw 
routing sheets with 12 to 15 signature boxes. And changing that 
type of process can save a lot of time and get to a decision 
much more quickly still with the full knowledge of the people 
that need to be involved.
    Chairman Issa. Mr. Walker.
    Mr. Walker. I had the opportunity to participate in 
CAPSTONE, which is training for flag officers in the military. 
And when I was participating in that I found out, as an example 
of what you're talking about, that 20 different units in the 
Pentagon had to sign off on activating and deploying 20 members 
of the Guard or Reserve. Not FYI; sign off and approve. There's 
absolutely no question there are too many layers, too many 
players, too many silos. And there's huge opportunity for being 
able to improve economy and efficiency there.
    Chairman Issa. The DOD is one of my favorite, even though 
it's not the primary jurisdiction of this committee. I'm often 
reminded that we fought World War II with the largest single 
building in America being the Pentagon, and it was filled. We 
had 10 million men and women in uniform and we didn't have 
computers. Today, it's still filled. We have a tenth of that 
and, oh, by the way, we have lots of other buildings we've 
filled.
    Which begs the question of, Ms. Kamarck, when you talked 
about the reduction, and I'm not trying to disparage the 
figures, but the figures were about men and women in uniform. 
That's really where most of that size of the Federal workforce 
went down. Isn't it true today that with organizations like the 
TSA, air traffic controllers, having more of them even though 
we have less flights, that we have tended to build in total 
FTEs more labor in government? And I use the word FTEs out of 
respect to Mr. Cox. Including contractors, we have more full-
time equivalents on a per capita basis than we had a generation 
ago, don't we? Excluding our men and women in uniform.
    Ms. Kamarck. Well, the numbers I used did not include men 
and women in uniform.
    Chairman Issa. In the Department of Defense.
    Ms. Kamarck. And it included the Department of Defense, the 
civilians, but not men and women in uniform, and not the Postal 
Service. Okay. I think in----
    Chairman Issa. Well, you can always improve it with the 
Postal Service as it shrinks.
    Ms. Kamarck. Exactly.
    Chairman Issa. That we do have jurisdiction over here.
    Ms. Kamarck. And it will shrink.
    I think that in defense of Mr. Cox there's actually been 
great stability in these numbers. In 1993, there were 2.1 
million Federal civilian employees. It shrank through the 
Clinton administration. It went up every year in the Bush 
administration, but mostly because we were fighting a war. So, 
as you know, the civilian side increases as the warfighters 
increase. And it is now back to 2.1 million again.
    So it went down, it went up. But it's still actually 
remarkably the same. In fact, if you go back into--I have this 
now back all the way to 1940--if you go back to the 1970s, it 
was very big. It was substantially over 2 million. So there's 
actually been--we're not growing topsy turvy. Obviously, what's 
growing is the amount of money we're spending. And we do have 
to ask ourselves, are we spending this money in the most 
efficient way? And I think that's where the work of your 
committee, of potentially a commission could come in most 
valuable.
    The question is not getting too hung up on FTEs. This is a 
big country, it's a big government. The question is, what is 
this government doing? What are we spending this money on? And 
do we still have to be spending this same amount of money on 
all of these functions? And I think that's where you'll get a 
lot more traction than you will if you worry about collective 
bargaining, worry about FTEs, et cetera.
    Chairman Issa. Well, I do worry about FTEs, and I do so for 
a reason, and that is that when he analyze what we get from our 
contractors versus what we get from the Federal workforce, 
uniformed and non-uniformed--and I'll share with you a former 
Secretary of Defense once brought in his team, and we met with 
them. And what we discovered, referencing the Pentagon, was 
that there were three people for each job in the Pentagon. 
We're talking about figuratively.
    One, there is the full-time civilian employee who can't be 
fired, can only be moved around, is highly skilled, not 
necessarily always highly motivated, is part of a large 
bureaucracy that sees SecDefs come, sees them go, sees 
administrations come and go, and tends to be very hard to get 
to move. Tremendous expertise, great people, but all of that is 
the case.
    Then there's the contractor. The contractor has a limited 
time, but an unlimited ability to look for plus-ups in the 
contract on behalf of their employer and is often incentivized 
to bring complexity, slowness, and expansion to contracts.
    Then you have the men and women in uniform that are 
detailed there. They generally are like I was, an armor officer 
trying to do an engineer's job. They are not highly qualified 
for what they are probably doing at the Pentagon in most cases 
because that's not what they came in the military for. They are 
highly motivated. They are very outcome oriented. But they are 
ill equipped both in the sense that often they are not trained 
for what they are actually doing and certainly they are not 
trained to go up against skilled contractors and career 
bureaucrats.
    That explanation, which took 4 hours, will stick with me my 
whole life, which is we need to figure out a way to have one 
person doing that job. And the question I started this hearing 
with, my first question is, how do I find that honest broker? 
Mr. Cox, by definition, has a fiduciary obligation to his 
workforce. Mr. Walker, there were statements made but there's a 
legitimacy that corporate America, particularly that a 
contractor America, they're trying to make a buck. And the more 
the better. And certainly expanding is their case.
    In procurement, we have outsourced procurement by three 
methods, and this is an area that this committee has had a lot 
of hearings on. One, we've outsourced it by actually having 
contractors in some case, which I still can't figure out how we 
got it to a contractor looking for contractors. We have 
outsourced it in the sense that we made determinations that we 
could reduce the total number of people while finding 
efficiencies that after the fact we found out we didn't find. 
The computer systems, the analytics, all the information that 
was promised didn't happen, but the reduction in the force 
occurred.
    Lastly, we've outsourced it during my tenure when I first 
entered Federal service as a young private, more than 30 years 
ago--a lot more than 30 years ago, make that more than 40 years 
ago--you could not double dip. Today you can be overseeing a 
contract knowing full well that your career will end and you 
will be working for one of the people you're overseeing. So the 
inherent conflict of people who go through the so-called 
revolving door.
    For any of you, and I'm happy to hear all of you because no 
one else is asking for time right now, how does this committee 
eliminate that conflict? Meaning, the military officer, for 
example, who has a second career in the private sector, the 
contractor whose job it is to increase the bottom line for the 
stockholders, the Federal employee who, quite frankly, is 
encouraged to make sure you protect all the Federal employees. 
Where do I find that honest broker in the process 
organizationally? How do I change that to where the people 
making the decisions to the greatest extent possible are not 
influenced by any of these three forces?
    Yes, ma'am.
    Ms. Kamarck. Let me start with this, because it's something 
I've thought a lot about in my years since I was in the 
government.
    Chairman Issa. I'm not accusing you of a revolving door.
    Ms. Kamarck. No. Believe me. Brookings is hardly the 
revolving door.
    One of the problems that you see when you look at the 
Federal Government versus the rest of the workforce is at the 
bottom Federal employees do fairly well, okay, compared to 
people with high school educations in the Federal workforce.
    Chairman Issa. Right. The standard argument we have here 
where we're talking about the numbers overall, the other side, 
you know, is talking about it relative to the anecdotal 
examples where--and we have them here in Congress--people are 
making far less than they could make if they walked out the 
door.
    Ms. Kamarck. That's right. The top, we have a problem. We 
have been falling way behind the private sector at the top of 
the Federal Government. We are not hiring the talent that we 
need to hire because we can't compete, because there are 
artificial ceilings. I understand the political problem. The 
political problem is terrible, right?
    Chairman Issa. Let me interrupt you for a second, Doctor. 
I'm going to be the devil's advocate here.
    Ms. Kamarck. Yes.
    Chairman Issa. We made exceptions at the SEC, and we found 
we still couldn't fire somebody who was downloading so much 
porn they ran out of disk space and had to go buy additional 
drive capability while making over a quarter of a million 
dollars a year, because, ``they had expertise.'' And certainly 
Franklin Raines and others, the Freddie and Fannie examples, 
they were corporate thieves using taxpayer guarantees and 
giving themselves huge bonuses, millions of dollars.
    We've had exceptions, in a sense. Haven't those exceptions 
discouraged any additional experimentation?
    Ms. Kamarck. Well, I think what happened is you gave the 
exceptions. At NIH, there's exceptions. There are exceptions 
throughout the government. But the exceptions did not come with 
the accountability, okay? So you've got to, in fact, if you're 
going to compete in the IT area, in the molecular biology area, 
all the sophisticated things government does, if you're going 
to compete for talent with the private sector, you have to 
offer them the same amount of money or close to it that the 
private sector makes, but you also have to take away the job 
security that has been part and parcel of government 
employment, and you've got to evaluate them on the basis of 
performance. Defined performance metrics.
    Now, we began an experiment 20 years ago of trying to write 
performance agreements with heads of agencies. The concept kind 
of fell by the wayside, it was too hard to do. But 20 years 
later it may be something worth bringing up again, because the 
fact of the matter is when you hire a CEO, when you hire 
somebody in the private sector, there are certain metrics 
they're supposed to meet in return for their large salary.
    In the government, what we've done is sort of the worst of 
both worlds. In some places we've increased the salary, but you 
didn't put the performance metrics. And I think that for the 
top of Federal management, because this is where the problem 
is, is at the top, it's not the sort of----
    Chairman Issa. So the Senior Executive Service of sorts.
    Ms. Kamarck. The Senior Executive Service, we've got to do 
two things simultaneously: increase their pay and increase 
their accountability for performance. And we haven't really 
done that, and that's why we've got these muddles that you're 
talking about.
    Chairman Issa. Mr. Cox, how do you feel about that? If I'm 
paying $200,000 and above, should people be represented by 
unions and covered by civil service or is there a point at 
which these jobs are not the jobs that were envisioned by that 
process?
    Mr. Cox. I would go to what the individual is actually 
doing. When we make reference to the senior executive 
employees, AFGE doesn't represent those employees.
    Chairman Issa. How about when somebody becomes a supervisor 
and, in fact, may be mistreating your line employees. At what 
point do we do that? And that's not the subject of today, but I 
couldn't resist asking.
    You know, I don't want to dramatically change civil service 
and the level of unionization of the Federal workforce, 
although I'd like to have better accountability of how many 
shop stewards don't do any work but spend their whole time on 
union activity. For the most part, it's a status quo that I 
came here to accept.
    So is your position what they do? The question is, does 
that mean that at what level of supervisor or manager do you 
feel that we should make people effectively at-will employees, 
that would be in the private sector. And, by the way, a guy 
writing code and making hundreds of thousands of dollars and 
having stock options is generally at-will in the private sector 
and, more importantly, is used to being portable if he's good.
    Mr. Cox. I understand that. But many of the Federal 
employees, managers also, there's rules and regulations. They 
have protections. Senior executives----
    Chairman Issa. Lois Lerner is on administrative leave. 
We're very aware you can take the Fifth, or try to, and still 
have full pay. As a matter of fact, there's a shrink sitting in 
prison right now waiting to be tried for murder, and he's still 
getting full pay and benefits. The Federal Government is 
different.
    I guess one of the questions is, Mr. Cox--I'm not going to 
ask you to answer this--but one of the challenges from the dais 
is if there are special protections, shouldn't there be a 
discount to what we pay if we're giving somebody effectively a 
better benefit? Not worrying about the rise and fall of jobs. 
You mentioned in your opening statement no RIFs. Well, if I 
can't do a RIF like I can't do at the post office, then I have 
people for whom I have no work that are causing me to lose 
money in a force that should be able to deliver an excellent 
product if we could simply right-size the workforce.
    So I'm very aware of what happens when you have no 
alternatives. I just wonder sometimes from this point is, 
what's that discount worth? Historically, you got security as a 
government worker, but you got less pay. Now Dr. Kamarck and 
others are saying we need to change that and get comprehensive 
pay, but the security change is part of it, at least if I 
understood you correctly.
    Ms. Kamarck. At least at the executive levels, for sure.
    Chairman Issa. Okay. Well, I could go on for longer than is 
fair to any of you. I'm going to close.
    Mr. Walker, something.
    Mr. Walker. Yeah. Let me just give you several thoughts, 
Mr. Chairman. First, as I said before, you need a plan, you 
need a budget, you need performance metrics. The country 
doesn't have it. We need it.
    Secondly, with regard to individuals and organizations, you 
need properly designed incentives, adequate transparency, 
appropriate accountability.
    You need civil service reform. You need budget reform. In 
each major agency, including the Department of Defense, we need 
a chief management officer, statutory qualification 
requirements, level 2 performance contract, term appointment, 
focusing day to day on how do we improve economy, efficiency, 
and effectiveness, and transform government. And last, you need 
GTI.
    Chairman Issa. Well, very good. Always a salesman.
    We could go on, but instead I'll tell you that we're going 
to have more hearings on this. I opened with one simple 
preface, which is I think there are too many people who 
theoretically are Cabinet and Cabinet-like positions, and we 
have an expectation that they are running organizations that to 
a great extent they not only can't, but if they were viewed for 
qualification, they're more qualified to make speeches about 
the organization--and this is under Republican and Democratic 
administrations--they're more qualified to make speeches about 
the organizations than they are to run the organizations.
    So, Mr. Walker, your closing comment was very good. Any 
reorganization of government has to be about how do we find 
accountability of those who actually do and oversee versus who 
are the advisors to the President and how do we organize his 
advising team? This all comes because our President of the 
United States asked for reorg authority, but I discovered that 
what he wanted was a couple more Cabinet positions. And I 
believe that he can have as many people running as many 
agencies as are necessary, but that has very little to do with 
how many people theoretically sit at a table that has to 
squeeze a few extra chairs in over the last few years.
    I thank you all for your patience. We ran longer than we 
planned to, but I was part of the problem. We stand adjourned.
    [Whereupon, at 12:22 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
